<html>
<title> - VA OUTREACH TO VETERANS AT RISK FOR HEPATITIS C INFECTION</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




       VA OUTREACH TO VETERANS AT RISK FOR HEPATITIS C INFECTION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 1999

                               __________

                           Serial No. 106-30

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
59-652 CC                   WASHINGTON : 1999




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Marcia Sayer, Professional Staff Member
                Robert Newman, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 9, 1999.....................................     1
Statement of:
    Baker, Terry, Vietnam Veterans of America and president of 
      Veterans Aiming Towards Awareness; George C. Duggins, 
      president, Vietnam Veterans of America, accompanied by Rick 
      Weidman, director of Government Relations, Vietnam Veterans 
      of America; Dr. Adrian DiBisceglie, professor, Department 
      of Internal Medicine, St. Louis University, and medical 
      director of the American Liver Foundation; and Dr. Alan 
      Brownstein, president, American Liver Foundation...........    26
    Garthwaite, Dr. Thomas L., Veterans Administration, Deputy 
      Under Secretary for Health, accompanied by Dr. Tom Holohan, 
      Chief Patient Care Services Officer; Dr. Toni Mitchell, 
      MBA, chief consultant Acute Care, Strategic Health Care 
      Group; James J. Farsetta, director, VISN Region III; and 
      Dr. Simberkoff, chief of staff, New York Harbor Health Care 
      System.....................................................     3
Letters, statements, etc., submitted for the record by:
    Baker, Terry, Vietnam Veterans of America and president of 
      Veterans Aiming Towards Awareness, prepared statement of...    30
    Brownstein, Dr. Alan, president, American Liver Foundation, 
      prepared statement of......................................    57
    DiBisceglie, Dr. Adrian, professor, Department of Internal 
      Medicine, St. Louis University, and medical director of the 
      American Liver Foundation, prepared statement of...........    46
    Duggins, George C., president, Vietnam Veterans of America, 
      prepared statement of......................................    39
    Garthwaite, Dr. Thomas L., Veterans Administration, Deputy 
      Under Secretary for Health, prepared statement of..........     5
    Snyder, Hon. Vic, a Representative in Congress from the State 
      of Arkansas, prepared statement of.........................    17

 
       VA OUTREACH TO VETERANS AT RISK FOR HEPATITIS C INFECTION

                              ----------                              


                        WEDNESDAY, JUNE 9, 1999

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2203, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Biggert, Towns, Schakowsky, 
and Sanders.
    Also present: Representative Snyder.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; Robert Newman 
and Marcia Sayer, professional staff members; Jason Chung, 
clerk; David Rapallo, minority counsel; and Jean Gosa, minority 
staff assistant.
    Mr. Shays. Let me call this hearing to order. Last year the 
House adopted our committee's call for a more aggressive, 
coordinated public health response to the silent epidemic of 
hepatitis C, HCV, infection. We recommended steps to inform, 
test and offer treatment to the 4 million Americans affected by 
the lingering viral liver disease. Among those steps, we urged 
the Department of Veterans Affairs [VA], to determine the 
prevalence of HCV among VA patients and reach out to those at 
risk.
    Why ask the already burdened VA health system to take a 
lead in a national public health effort? Because recent studies 
confirm 8 to 10 percent of all veterans suffer from HCV, four 
to five times the rate of infection in the general population. 
At one recent VA screening, more than a third of the veterans 
tested positive for HCV antibodies, with almost two-thirds of 
those having served in the Vietnam war era.
    According to testimony we heard last year from former U.S. 
Surgeon General Dr. C. Everett Koop, the VA has a 5-year window 
to ``head off very high rates of liver disease and liver 
transplants in VA facilities over the next decade'' when those 
exposed to infected blood and blood products 20 to 30 years ago 
will seek care for acute symptoms, cirrhosis and liver cancer.
    Early this year, VA Under Secretary Dr. Kenneth Kizer 
launched what he termed ``an aggressive public health 
approach'' to HCV by issuing guidelines to all VA facilities 
for screening, counseling and expensive drug therapies. His 
program calls for ambitious initiatives to educate patients and 
medical providers, expand epidemiological and clinical research 
and extend treatment to all who might benefit, regardless of 
other eligibility criteria. He has set the VA on a bold, 
proactive, high risk course.
    It was the right thing to do. In less than a year, the VA 
has made an impressive start toward the HCV awareness, testing, 
treatment and research some have been demanding for a decade. 
The challenge now, and the subject of our discussion today, is 
how the VA plans to sustain and expand that promising 
beginning.
    We asked the VA to describe their program to translate a 
headquarters initiative into effective implementation 
strategies in all 22 VA service networks. We asked the 
department's partners in this effort--veterans service 
organizations and the American Liver Foundation--to describe 
the barriers to outreach and care they see every day, and which 
the VA must still overcome.
    The hepatitis C initiative tests the VA capacity to inform 
patients, to educate physicians, to counsel those at risk and 
to deliver consistent care across a decentralized health 
system. For the VA, the price of success may be too high if 
estimates of prevalence are low, outreach is effective, and a 
$15,000 course of treatment is indicated for more than a 
fraction of those with the disease. For veterans with HCV, and 
for the Nation, the price of failure will be incalculable.
    Our goal this morning: To keep the wind in the sails of the 
VA hepatitis C initiative and help guide the program toward 
sustainability and success. We appreciate the time, expertise, 
and dedication our witnesses bring to this important 
discussion, and we look forward to their testimony.
    Let me introduce our first panel, Dr. Thomas Garthwaite, 
Veterans Administration, Deputy Under Secretary for Health, 
accompanied by Dr. Tom Holohan, Chief Patient Care Service 
Officer; Dr. Toni Mitchell, chief consultant Acute Care, 
Strategic Health Care Group; and James Farsetta, director, 
VISN, and Dr. Simberkoff. Dr. Simberkoff, your background is?
    Dr. Simberkoff. I am the infectious disease doctor and the 
chief of staff for the New York Harbor Health Care System, 
which are two of the facilities in network 3.
    Mr. Shays. It is wonderful to have all of you here. At this 
time I will swear you in and then we will see a quick 
advertisement on the screen and then we will take your 
testimony.
    [Witnesses sworn.]
    Mr. Shays. I note for the record that all have responded in 
the affirmative.
    At this time before taking your testimony I would like to 
see the new public service announcement on hepatitis C which is 
going to air soon. It is sponsored by the American Liver 
Foundation and Vietnam Veterans of America.
    [Video shown.]
    Mr. Shays. OK, Dr. Garthwaite, you have the floor. My 
assumption is that we have testimony from you, doctor, and then 
I will be happy to take comments if any of you want to make a 
point or two. It is important to put your comments on the 
record. Thank you for being here.

STATEMENT OF DR. THOMAS L. GARTHWAITE, VETERANS ADMINISTRATION, 
   DEPUTY UNDER SECRETARY FOR HEALTH, ACCOMPANIED BY DR. TOM 
    HOLOHAN, CHIEF, PATIENT CARE SERVICES OFFICER; DR. TONI 
 MITCHELL, MBA, CHIEF CONSULTANT ACUTE CARE, STRATEGIC HEALTH 
 CARE GROUP; JAMES J. FARSETTA, DIRECTOR, VISN REGION III; AND 
  DR. SIMBERKOFF, CHIEF OF STAFF, NEW YORK HARBOR HEALTH CARE 
                             SYSTEM

    Dr. Garthwaite. Thank you, Mr. Chairman. We submitted a 
written statement for the record and I would just like to make 
several points before we get into the question and answer 
portion. First, I would just like to say that we believe that 
we have made significant progress since the previous hearing on 
hepatitis C. We have developed and promulgated policy about the 
diagnosis and screening for patients with hepatitis C. We have 
developed policy and promulgated it to patients with hepatitis 
C and we have dramatically increased the number of veterans who 
have been tested for hepatitis C. We have conducted a 1-day 
surveillance study of patients presenting to our medical 
centers who have had blood tests for other reasons and tested 
their blood for hepatitis C, which has given rise to a better 
sense of what the actual incidence might be in the total 
veteran population. We have founded two centers for the 
leadership in study and education, and our strategy is to meet 
the challenge of providing care for veterans who are infected 
with the hepatitis C virus.
    We have conducted a conference where 500 caregivers came to 
Washington and heard and were educated about strategies for 
diagnosis and treatment of hepatitis C. We have participated in 
an interagency work group with the Department of Defense Health 
and Human Services and VA about strategies of the government 
toward hepatitis C. We have introduced a budget initiative in 
our fiscal year 2000 budget to provide additional funding so we 
might meet the treatment and diagnostic needs for patients.
    Finally, we have continued our research of about $12 
million, 137 projects with 30 investigators. All of this is 
designed to aggressively approach what is a very significant 
problem for veterans and for all Americans infected with this 
virus. We face several challenges. One of the challenges is how 
to do outreach and how to reach the right people without 
inducing undo concern in those who don't have the virus, and 
the video that we just saw will be an important part of that 
effort, and we will face significant challenges in treating and 
teaching each of those individuals about the risks and concerns 
about hepatitis C.
    Second, we have an issue about how to take all of the 
patients that we do treat on a regular basis and make sure that 
we appropriately screen those and then for those who are 
screened at high risk, make sure that we test and educate them 
as well. We have a policy that says we will do that today. The 
question is how do you get policy to happen 100 percent of the 
time in a very large system.
    One of the things that we can do is education and we have 
taken significant steps in education, including various 
conference calls that we have had, and a variety of other 
methods. Another way is to improve our computer systems and put 
automated reminders into the encounter software so that it 
automatically checks to see if screening and testing has been 
done, and if it hasn't to remind clinicians to do such things, 
and we are pursuing that as an avenue to make sure that it only 
happens because of education, but there are reminder systems to 
remind the myriad of clinicians who come and go through VA 
hospitals to take that into account.
    Finally, we need to make sure that treatment is uniform. We 
have guidelines, but guidelines require education and human 
beings are fallible when it comes to education so we need to 
provide additional systems to make that happen and we are 
undertaking a match of our pharmacy data bases with that of our 
test data bases to see whether of those who are tested how many 
are treated, and then we will sample that to see if those who 
are not treated, whether the patient has refused treatment or 
whether there are contraindications. I think our biggest fear 
is pressures on the budget will prevent people from getting 
treatment, and we don't find that acceptable and want to make 
sure that does not happen.
    We have a series of challenges ahead of us, but we have 
made significant progress. Like many other diseases of 
veterans, they are highly complex issues and it is a very large 
system and it requires a significant amount of teamwork and 
that is why we brought a number of team members here to the 
hearing today. We hope that we will be able to answer all of 
your questions and look forward to dialog on this important 
topic. Thank you.
    [The prepared statement of Dr. Garthwaite follows:]
    [GRAPHIC] [TIFF OMITTED] T9652.001
    
    [GRAPHIC] [TIFF OMITTED] T9652.002
    
    [GRAPHIC] [TIFF OMITTED] T9652.003
    
    [GRAPHIC] [TIFF OMITTED] T9652.004
    
    Mr. Shays. Thank you. Any other comments before the 
questioning?
    OK. What is the capacity of the VA to ensure that this 
program is implemented uniformly and equitably nationwide in 
all of our facilities?
    Dr. Garthwaite. When you say capacity?
    Mr. Shays. Capacity, financial facilities.
    Dr. Garthwaite. Well, we have certainly made the commitment 
that we will make resources available to diagnose and treat 
hepatitis C among those veterans certainly for this year, and 
we assume into the future. So capacity in terms of budget, at 
least in the immediate future, I think we made a commitment 
that that is not an issue. We will diagnose and treat hepatitis 
C veterans.
    There are some other clinical issues and I will ask my 
colleagues to amplify, but one of the issues is how do you get 
the expertise to each individual place a veteran can show up in 
the health care system and that has been part of our education 
initiative in having conferences and educating people from each 
network.
    Mr. Shays. What would be helpful--let's just focus on the 
costs first. Break down the different elements that are 
involved. One is just educating--one is to educate all of your 
facilities on what they need to do. Another is how you educate 
the potential person with the disease in terms of coming 
forward and being tested. So there are costs involved there. 
Then there are other costs in terms of just diagnosis and then 
there are other costs in terms of treatment and maybe you can 
just--I would think if I were part of the VA system, and if I 
was one of the veterans groups my biggest concern would be that 
Congress will simply appropriate the same amount of money and 
you will have to find it somewhere else. So just give me a 
sense and make it a part of the record as to what the range of 
costs could be.
    This is kind of a long question so I am happy to have 
others of you participate in the answer.
    Dr. Garthwaite. Our budget estimate for the fiscal year 
2000 budget was $250 million. But there are a lot of 
assumptions in there that we don't know whether they are 
accurate or not, but we think----
    Mr. Shays. Which budget, the one that we are in now?
    Dr. Garthwaite. The fiscal year 2000, the cycle that is 
being debated at the present time.
    Mr. Shays. The budget we are going into. By the way, I am 
taking off my coat and if any of you want to do the same feel 
free. I would think of you better if you would remove your 
coat.
    Mr. Farsetta. Just don't ask us to step outside.
    Dr. Garthwaite. We believe the cost for testing and 
treatment per case is about $15,000.
    Mr. Shays. I just wanted to welcome our member from the 
minority side, Ms. Schakowsky, and if I could get some business 
out of the way, I would ask unanimous consent that all members 
of the subcommittee be permitted to place an opening statement 
in the record and the record remain open for 3 days for that 
purpose and without objection, so ordered. And ask further 
unanimous consent that all witnesses are permitted to include 
their written statement in the record and without objection, so 
ordered. Is there any point that you would like to make?
    Ms. Schakowsky. As a freshman I have proven that showing up 
counts because I am the ranking member on this side.
    Mr. Shays. And I want you to treat her with the respect 
that a ranking member requires. It is very nice to have you 
here, Ms. Schakowsky. Right now we are going to have the VA 
walk through the potential cost of getting the system to know 
how to deal with this issue, how to alert veterans that they 
need to come forward and also the cost of diagnosis and the 
cost of treatment.
    Dr. Garthwaite. Let me ask Tom Holohan, who has done a lot 
of our cost estimating.
    Dr. Holohan. Let me briefly go through some of the factors 
that are involved in any cost estimates and one of the 
distressing things from a scientific or medical point of view 
versus a budgetary point of view is the budget people don't 
like ranges. They like a precise figure. They want a number 
that they can write a check. Unfortunately in this instance, 
that is not really possible. The cost of testing an individual 
patient can run anywhere from $10 to $50. The initial test is 
an immunoassay antibody test. If that is positive, it is 
automatically repeated and depending on the risk factors you 
may ask for an additional test called the RIBA, radio immune 
blot assay. Subsequent to that testing if the patient is 
positive and you are considering that they may be treatable, 
there are other tests that are indicated. The standard of care 
now includes measuring viral RNA, which is a moderately 
expensive test. It also requires--it is recommended that a 
liver biopsy be performed prior to treatment and there are also 
now recommendations for viral genotype testing which are in the 
range of $200 to $300 because those provide you with prognostic 
factors which may tell you how long the treatment should go on 
for. Mr. Shays. So if we add that up, it amounts to how much 
per patient?
    Dr. Holohan. At that point you are probably talking about 
several thousand dollars before you initiate treatment. That is 
not including opportunity costs, physician time, nurse time.
    Mr. Shays. First the test to show if someone has hepatitis 
C, what does it cost?
    Dr. Holohan. The initial testing would be in the range of 
$10 to $20 per head.
    Mr. Shays. By then we know that they are at risk?
    Dr. Holohan. Yes.
    Mr. Shays. And the next test is to decide what kind of 
treatment is advisable?
    Dr. Holohan. The next test is the radio immune blot assay. 
That is a confirmatory test that is in the range of $50. 
Subsequent to that----
    Mr. Shays. And that tells you what?
    Dr. Holohan. That confirms that the patient is antibody 
positive, it is not a false positive.
    Mr. Shays. They are at risk, and the next one is they have 
it or don't have it, and we are up to about $70 give or take?
    Dr. Holohan. That is correct. The next set of tests would 
include measurement of viral RNA, and that is in the range of 
$200 and that is both diagnostic and prognostic. That is 
repeated during any treatment phase so you know whether or not 
you are in fact eliminating the virus. It is recommended that 
every patient prior to treatment have a liver biopsy, and the 
private sector estimates of those costs are in the $1,000 to 
$2,000 range. The VA estimates are that we can do that for 
about $500 in round numbers.
    Mr. Shays. You do it internally?
    Dr. Holohan. Yes. We can do it for less cost than the 
private sector. The viral genotyping is approximately $300. 
These are estimates. You might get a better buy in California 
than in Peoria.
    Those tests would have to be repeated at various intervals. 
The viral RNA test you would repeat because one of your 
determinations at the end of treatment is whether the patient 
has in fact responded to treatment and there are two measures 
of that. One are routine liver function tests which are 
relatively inexpensive and whether in fact you have eliminated 
the viral RNA. The treatment costs for the currently 
recommended dual therapy are probably in the range of $12,000 
to $15,000 for a course, which is recommended to be 48 weeks or 
approximately a year.
    Mr. Shays. What does that buy you?
    Dr. Holohan. That buys you treatment with interferon and 
ribavirin.
    Mr. Shays. And the outcome is what?
    Dr. Holohan. I am not sure, what do you mean? What 
proportion of patients----
    Mr. Shays. We treat patients because we hope to have a 
positive impact. What is the positive impact?
    Dr. Holohan. In general most studies have shown that 
combined treatment with ribavirin with interferon will clear 
the virus 6 months after treatment in somewhere between 40 and 
50 percent of cases. That is about twice as high as the viral 
clearance rate with treatment with interferon alone. I should 
caution, however, that we don't know that those data will 
necessarily apply when we treat veteran patients because the 
demographics of the patients treated in most of the published 
literature with those regimes are dissimilar demographics from 
our veteran demographics. We have a higher number of minority 
patients who tend not to respond as well to treatment. In the 
VA we may get a lower rate of viral clearance, but we don't 
know that yet.
    Mr. Shays. I was told that when we do this type of 
treatment, about 40 percent will see a very noticeable benefit.
    Dr. Holohan. Right.
    Mr. Shays. But I didn't pursue it to know--are we extending 
someone's life? Is the liver going to last a little longer? Are 
people literally healed? I have been led to believe that 
hepatitis C, you are not going to be healed, at least what we 
know now.
    Dr. Holohan. Again, some of the answers--the difference 
between what we can provide an opinion on medically----
    Mr. Shays. I don't mind a range of possibilities here.
    Dr. Holohan. There are liver specialists who have used the 
word ``cure'' with respect to sustained viral elimination in 
hepatitis C. Dr. Schiff, who works with the VA in the Miami 
Center of Excellence, has used that word, but then we will 
routinely qualify it and say as far as we know.
    Mr. Shays. Your expertise primarily is on the financial 
side of this?
    Dr. Holohan. No, which should be apparent as I continue to 
speak.
    Mr. Shays. You have endeared me to you already.
    Dr. Holohan. Thank you.
    The bottom line is we are not certain if there will be an 
absolute cure. We do have data that show patients who have 
cleared virus and have remained virus free for some years after 
completion of dual treatment therapy. There is some hope that 
you can put yourself in the circumstance of HIV infection where 
you can very strongly effect the prognosis of the patient but 
perhaps not totally cure him. We don't know the answer to that 
yet.
    Mr. Shays. We really got into the whole issue of hepatitis 
C kind of as a silent disease following the infection of blood 
supply with AIDS.
    Dr. Simberkoff.
    Dr. Simberkoff. Yes, if I can amplify on Dr. Holohan's 
answer, the cure rate that is being quoted involves precisely 
that, eradication of the virus from the blood. None of the 
patients have been followed long enough to determine whether 
their life expectancy is affected by these treatments or 
whether or not they will go on to develop further liver 
disease. So I think these treatments are relatively new and we 
need to have lots and lots of followup of patients, 
particularly in our population.
    Mr. Shays. How much is spent so far? How much did we put in 
this year's budget just capturing from other parts of your 
budget. You are asking for 250 in our next year's budget, in 
fiscal year 2000, but what did we put in 1999?
    Dr. Garthwaite. There is no specific targeted amount for 
hepatitis C in this budget.
    Mr. Shays. You are just absorbing it?
    Dr. Garthwaite. Right.
    Mr. Shays. Do you know how much you have spent so far?
    Dr. Garthwaite. I don't know that we are able to make that 
assessment.
    Mr. Shays. Can you give me a sense what you have learned to 
date, and we can go from there.
    Dr. Garthwaite. We have tested approximately 200,000 
veterans and diagnosed 38,000 give or take.
    Mr. Shays. Out of 200,000?
    Dr. Garthwaite. Right. 200,000 individual tests have been 
done in the last 18 months, and about 38,000 unique individuals 
tested positive for hepatitis C.
    Mr. Shays. Let me ask you the basic question, a veteran 
comes in routinely or you ask them to, or is it a combination 
of both? Then tell me how they are told about hepatitis C and 
then what you do.
    Dr. Holohan. Well, the information letter that was sent out 
last June instructs clinicians to ask patients if they have any 
of the specific risk factors for hepatitis C. If they do, they 
are supposed to be counseled on the advisability of antibody 
testing for hepatitis C. We don't routinely test everyone who 
walks in the door because the false positive rate is not 
insignificant in this disease and it would be----
    Mr. Shays. Give me a sense of what not insignificant means 
to you?
    Dr. Holohan. If the prevalence in the population that you 
are testing is below 10 percent, the likelihood of the test 
reported as positive being true positive is lower than the 
likelihood that it is false positive. And most of that data are 
available from the routine hepatitis C testing of donated 
blood.
    Mr. Shays. You have a double negative in there. I am having 
a hard time in sorting that out.
    Dr. Holohan. The likelihood of a positive test being true 
positive relates to what the pretest probability of the disease 
was.
    So if you screen all donated blood from let's say healthy 
active duty military people and you get a positive result from 
John Smith, the likelihood is that is a false positive.
    Mr. Shays. And you have to spend $50 more to find that out?
    Dr. Holohan. Right. The biggest problems in our assumptions 
about the financial implications of hepatitis C relate to the 
problem that we don't know at least two facts, one of which is 
what is the true prevalence of hepatitis C in our patients. We 
think we have a better handle on it now than we did 6 months 
ago, but we are uncertain and the projected cost is very 
dependent on the prevalence of the disease. The second thing we 
don't know is what percentage of our patients are treatable. 
You will hear testimony later today that talks about 10 
percent. One of our hepatology experts has provided her opinion 
that it is 20 percent and other people in the VA who are 
equally knowledgeable have said 40 percent. So when you are 
making predictions on the cost, it is extraordinarily dependent 
on that. Finally, we are not sure what percentage of our 
patients will continue with the full 48-week treatment course. 
As you will probably hear, these drugs have very, very 
significant side effects and it takes a high degree of 
motivation for a patient who may not feel ill when you start 
treatment and you make him feel much worse.
    Mr. Shays. I am going to give up the floor but I will want 
to come back later and see how we deal with it in a particular 
area. Mr. Farsetta, I will be coming back to you.
    Ms. Schakowsky. Thank you, Mr. Chairman. I wanted to ask a 
couple of questions about health care workers and the exposure 
and the risk that they are at. According to the Centers for 
Disease Control, health care workers are one of the groups that 
are most at risk of hepatitis C infection due to needle sticks 
and so I was wondering if the Veterans Administration plans to 
adopt the use of safety design needles and sharps in order to 
reduce the risk to health care workers?
    Dr. Garthwaite. Clearly we have already been using 
universal precautions for a long period of time. To my 
knowledge a significant number of our medical centers already 
have adopted safe needles and advanced needle and IV designs 
that decrease the likelihood of needle sticks in health care 
workers.
    Ms. Schakowsky. Is that policy though or is that just 
procedure at some of the places?
    Dr. Holohan. It is not policy. Actually this has been 
around for a little while. There are differences of opinion on 
the design of various needle arrangements that have automatic 
sheath retraction and so on and so forth. In fact, I guess 
within the past 6 months I have discussed this with the FDA, 
and there doesn't appear to be a single design that stands out 
above the others, although some of the early studies indicate 
that there is a reduced likelihood of accidental needle stick.
    Ms. Schakowsky. Apparently OSHA in California did a cost-
benefit analysis on the use of these safety design needles and 
sharps and found because of the testing and treatment costs it 
saves, businesses and facilities across the State would save a 
$103 million each year if safer needles and sharps were 
utilized, not to mention that we might save--the estimates of 
the number of workers that become infected, it is a wide range 
but the outside is 5,900 health care workers who are 
potentially affected and it seems to me that this would be a 
reasonable procedure. What would it take--I am a cosponsor of 
legislation that would require that, but I am wondering if that 
is in the works anyway.
    Dr. Mitchell. Actually, the area that is involved, that is 
not Patient Care Services. It is the Division for Public Health 
and Environmental Health. And they are reviewing the use of 
that. I have not seen final data, although I have seen a draft 
review of that. The major step that was taken that has probably 
improved that more than anything else is just not recapping 
needles because the initial reason that most people were--had 
needle stick injuries was attempting to recap a needle that had 
already been used. We do have a policy of not recapping open 
needles and that they should be disposed of and every room 
should have an appropriate OSHA approved disposal area. So that 
has been the major thing. And I know that Dr. Fran Murphy is 
looking at the issue of needle sticks. However, the CDC also 
does not recommend routine testing for health care workers. 
What they say is that the testing should take place only in the 
circumstance where the needle stick occurred with a known 
hepatitis C positive patient so that the testing is very 
focused in that particular situation.
    Dr. Garthwaite. I would just say that we totally agree with 
you that we must do everything that we can to minimize any 
chance of a health care worker being infected and we will 
double-check where the review from our occupational health 
people is and get back. We have no disagreement whatsoever, we 
fully believe that we have to do everything to protect our 
health care workers.
    Mr. Shays. Bernie, do you want to vote?
    Mr. Sanders. First of all, my apologies for being late and 
thank you for calling this hearing on this very important 
issue. If I am asking a question that you already asked, Chris, 
I apologize. Many of us have been concerned that the budget for 
VA health care has been grossly inadequate, no ifs, ands or 
buts. My understanding is that treating hepatitis C is a very 
expensive proposition. I ask you a very simple question. If you 
treat folks with hepatitis C, what does this mean? Do you have 
the resources to do it? If you do it, are you taking money away 
from other desperately needed areas? We won't tell anybody what 
you said, just between us.
    Dr. Garthwaite. We put forward a budget initiative in the 
fiscal year 2000 budget for an additional $250 million to treat 
hepatitis C. The President's budget that was submitted did 
contain the initiative for $250 million. The total budget level 
kept to the previously agreed upon balanced budget agreement 
which was no increase, only any increase of medical cost 
recovery funds we could make. Therefore, any money for 
hepatitis C will come from offsets in efficiencies in other 
parts of the system.
    Mr. Sanders. In other words, you are going to have to take 
from Peter to pay Paul? And Peter is really hard pressed today.
    Dr. Garthwaite. In the ideal circumstance, we will find 
efficiencies that don't affect patient care, obviously.
    Mr. Sanders. I know that you share that concern.
    Mr. Shays. The bottom line is that there is a line item in 
the budget but no money in essence for it.
    Dr. Garthwaite. Right. There is no additional money because 
the President's budget did conform to the previously agreed 
upon balanced budget agreement.
    Mr. Shays. It is important for that to be part of the 
record for me because I want to stay within the budget 
agreement if we can, but you would do a disservice if we don't 
acknowledge it up front. The ball is in our court now how we 
deal with it.
    Mr. Sanders. I don't agree that we should stay within the 
caps.
    Mr. Shays. But we both agree that this is going to cost a 
plenty sum, and the money has to be there. I can't say that it 
has to come from within the budget.
    Mr. Sanders. I don't think there is any great secret that 
VA hospitals all over this country are hurting and to take 
money away from already underfunded areas to deal with this 
tragedy, people are going to be worse off.
    Mr. Shays. In Connecticut, we combined some hospitals and 
made some tough decisions. We didn't see that same success in 
Boston. So we have some disputes within our own district which 
says there are some savings to be made but frankly those 
savings are needed in a whole host of areas besides this.
    Mr. Sanders. But we don't want to see VA health care 
undermined, and we are at that point. Now we have to vote.
    Mr. Shays. We are going to have to recess. This is the only 
vote that we have for about 2 hours. We are just going to walk 
over and come back but it will probably take us about 15 
minutes.
    [Recess.]
    Mr. Shays. I would like to call this hearing back to order 
and Bernie Sanders will begin asking questions and also I 
recognize Vic Snyder from Arkansas. It is great to have you 
here.
    Mr. Sanders. Having come--just one question and again I 
apologize if this issue has been gone into before. The rate of 
infection for veterans of hepatitis C is much higher than in 
the general population. Can somebody explain briefly why that 
is the case? Is that because veterans in general being young 
males primarily are more at risk or what is the connection?
    Dr. Garthwaite. We believe right now we can say that when 
we tested veterans who showed up for care and were getting 
blood treated, it was at the 8 to 10 percent level. What we 
can't tell you exactly is whether that is a true representation 
of the entire veteran population since smaller number--only a 
portion of the total number of veterans use the VA health care 
system. I think our population is skewed in that we take people 
who are disabled, often combat disabled, which implies that 
they were wounded in service or had transfusions in relation to 
their disabilities perhaps or we have patients--one of the 
other selection criteria is the highest priority for veterans 
is that they are poor. Often in America people are poor because 
they are ill to begin with or in some cases because they suffer 
from mental illness or disability, including drug and alcohol 
use, and we know that drug use is highly correlated as well. So 
we think that at least the population that we have tested so 
far has some significant risk factors, combat wounds, 
transfusions, multiple surgeries with transfusions prior to 
1990 when testing was available. Certainly the theaters of 
Vietnam in particular where we see the highest prevalence 
certainly had risk factors associated with them. These are 
areas in which medics were often called upon to treat people 
who were bleeding so there was a fair amount of mixture and 
potential cross infection out in the field.
    Mr. Sanders. You think that service in Vietnam is a 
significant cause for--perhaps for the disparity of incidence?
    Dr. Garthwaite. I am not sure----
    Dr. Holohan. There is an increased risk for patients with 
hepatitis C who have been in country in Vietnam, yes. They have 
a higher ratio of being positive than veterans who were not.
    Mr. Sanders. On top of the fact that they may be low income 
and may use drugs, just presence in Vietnam, everything being 
equal, will give you a higher risk factor?
    Dr. Holohan. Yes.
    Mr. Sanders. Thank you.
    Mr. Shays. Congressman Snyder.
    Mr. Snyder. Thank you. I am sorry I'm late, there was a 
Veterans Subcommittee meeting on health. I have an opening 
statement that I ask to be submitted in the record.
    Mr. Shays. Without objection, so ordered.
    [The prepared statement of Hon. Vic Snyder follows:]
    [GRAPHIC] [TIFF OMITTED] T9652.005
    
    [GRAPHIC] [TIFF OMITTED] T9652.006
    
    [GRAPHIC] [TIFF OMITTED] T9652.007
    
    Mr. Snyder. I have been grappling with this issue of how a 
veteran picked up an illness in 1968 and we didn't test for 
until 1989 or 1990.
    No. 1, do any of you have any comments on this issue of how 
well we are doing in the VA system in terms of our accuracy of 
either affirming or turning down claims for service connection 
with regard to hepatitis C? And No. 2, what do we think at this 
current state of knowledge is the percentage of those with 
hepatitis C that we don't have a good guess what the etiology 
is and we just put them in the unknown category? I don't know 
who to direct those questions to.
    Dr. Garthwaite. With regards to the accuracy of ratings, no 
one here is really an expert on that. We could get you for the 
record obviously what a reasonable response is about the rating 
decisions that have been made. We are reviewing I believe your 
bill on presumption and getting comments on that so I think as 
part of our analysis of that rating, the rating decisions being 
made, we would like to provide that for the record.
    Tom, do you have any comment on the other part?
    Dr. Holohan. I think the bottom line is that in an 
individual case from a medical point of view, not a medical 
legal necessarily but from a medical point of view, it is 
almost impossible to determine what the precise proximate cause 
of infection with hepatitis C is. A patient may have one, two 
or many risk factors and to determine which was in fact the 
proximate cause of the disease is in my opinion impossible.
    Mr. Snyder. And that does have some revocations. I like 
your phrase almost impossible to determine because in 20 to 30 
years of history, some risk factor may be service connected and 
some risk factors may not be service connected. I don't know if 
my bill is the best way to get at this problem. I haven't seen 
anything better out there and I think there really are some 
challenges, having talked to some of the people who do the 
ratings. I am a family doctor and I would hate to be the one 
who had to flip that coin and make that kind of determination 
on this illness. I think doctors are used to making evaluations 
on things that you can evaluate, but this is different. You are 
talking about a point in time. We are physicians, not 
detectives. At what point in time did that virus enter that 
bloodstream. I will say any comments, criticisms, suggestions 
on H.R. 1020, I would be more than receptive to. We are trying 
to solve what I think is a problem for some veterans.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much. I have a few questions 
before we go to the next panel that I would just like to get on 
the record. The first, what outreach initiatives does the VA 
have underway to reach the veteran population considered most 
at risk? If you just put it in fairly simple terms, what the 
outreach initiatives are?
    Dr. Mitchell. I think that we have tried to approach the 
problem in general by first educating our clinicians because 
they will be the front line contact with all veterans and the 
point of the information letter was to help us in risk 
stratification, which patients are at greatest risk and 
therefore need testing and are more likely to be eligible for 
treatment.
    Second, we have developed a Web site which will be Internet 
accessible by patients and their families.
    Mr. Shays. When will that be done by?
    Dr. Mitchell. It is actually up now. It is not terribly 
sophisticated at this point in time, and we are working on that 
and plan on soliciting articles both from veteran service 
organizations, from our networks, from the facilities, from the 
American Liver Foundation, from other Federal agencies to 
provide further information, but I will be glad to provide to 
you later the exact Web address because I have learned quickly 
that a number of them are Web savvy. We are working with the 
American Liver Foundation to develop specific materials, one of 
which was the PSA that you just saw; others are written 
materials which will be delivered to them. We also have asked 
and have been working directly with the networks to have 
counselors specifically trained to discuss these issues with 
patients and their families. We have also been working with the 
networks and the ALF to set up support groups so that when a 
patient tests positive, whether or not they are eligible for 
treatment yet, that support groups will be made available to 
them so that they can meet on a regular basis.
    So there are a number of activities that are going on, both 
nationally and at the local level. When there has been a 
request for assistance for testing, for instance in New York 
State, the VA had asked for our assistance in helping to set up 
a testing program, and we participate in those kinds of 
collaborative outreach kinds of programs as well.
    Mr. Shays. The testimony so far is that some say 10 percent 
can be treated, some 20 and potentially up to 40 percent 
successfully, and we still haven't defined success. We would 
all agree I am assuming that everyone has a right to know that 
they have hepatitis C, not knowing that it would be a tragedy 
for them not to know how and to begin to find ways to deal with 
it, and certainly not to spread the disease and so on. My first 
question is even if we didn't think that we could successfully 
treat someone with hepatitis C, we do feel that it is important 
that they know that they have it; is that correct?
    Dr. Mitchell. That is correct.
    Dr. Garthwaite. One of the criteria is patient requests for 
screening.
    Mr. Shays. Any patient who requests will be tested?
    Dr. Garthwaite. Yes.
    Mr. Shays. But you don't test everyone. Everyone who comes 
in is not tested for hepatitis C?
    Dr. Mitchell. As I said, with the information letter the 
point was if they have absolutely no risk factors, we would not 
test them unless they requested to be tested because, as Dr. 
Holohan described earlier, the risk of a false positive is 
fairly high. So if they have no risk factors we do not test. We 
say you have none of the known risk factors and we have been 
more inclusive than the CDC in that by adding the Vietnam 
veteran as one and----
    Dr. Holohan. Even alcohol abuse, tattooing, or body 
piercing, none of which are considered to be risk factors by 
CDC we do include.
    Mr. Shays. Mr. Farsetta, you have one of the VA service 
networks?
    Mr. Farsetta. That is correct.
    Mr. Shays. Can you describe your area?
    Mr. Farsetta. My area is New York City, Hudson Valley and 
most of New Jersey.
    Mr. Shays. As I recall, we had a hearing in one of your 
areas.
    Mr. Farsetta. Yes, we had a hearing in Waterville, which is 
about 2 miles north.
    Mr. Shays. I will never forget that hearing as long as I 
live.
    Mr. Farsetta. Neither will I.
    Mr. Shays. I felt like I was a western judge preventing a 
lynching.
    Mr. Farsetta. Thank you very much.
    Mr. Shays. And in the process I almost got lynched myself. 
If the choice was between you or me at the end I would have 
made----
    Mr. Farsetta. The right choice. Public service, wonderful. 
Go ahead.
    Mr. Shays. I got out all right, just a few bad articles in 
the process. Describe how the HCV initiative has been 
implemented in network 3?
    Mr. Farsetta. First of all, we have the highest prevalence 
of HIV in the Nation in my network. We really have been dealing 
with HIV and hepatitis C for a number of years. We actually 
have had a collaborative effort between the infectious disease 
physician, the GI physicians and the chiefs of medicine and we 
have been looking at hepatitis C and have been concerned about 
hepatitis C, as I say, for a number of years.
    We have tested in excess of 14,000 people in the network. 
This year alone we have tested from October 1 to the current 
date over 10,000 veterans.
    Mr. Shays. You tested 14,000 total?
    Mr. Farsetta. Roughly, and 10,000 since October 1. We have 
2,700 who are positive and we have about 250 who are in 
treatment and we are adding about 50 per month for treatment. 
We are actively testing about 800 veterans per month.
    Mr. Shays. You just answered the next three questions and 
you did it the right order.
    Are you taking this out of your own budget?
    Mr. Farsetta. Yes, I am.
    Mr. Shays. Have you put a cost to it?
    Mr. Farsetta. So far probably this year about $4 million. 
And in essence every time we engage a veteran in treatment, we 
will be incurring over the course of 48 weeks roughly $15,000. 
So I am incurring costs of perhaps $750,000 each month and it 
doesn't work out to be each month but I am essentially using a 
credit card and saying whatever it costs to treat you, we will 
treat you. While this year is not problematic, with what we are 
hearing about the budget for next year it will be terribly 
problematic and I don't know how I will be able to continue to 
do that.
    Mr. Shays. I think it is important that the VA know that 
alarm bells are going off and putting Congress on notice. We 
will be debating the VA-HUD bill and it has less money total 
than last time, and we really have to come to grips with this 
and you should not allow me or anyone else to escape the 
reality of that.
    We have been joined by Judy Biggert. I don't know if you 
have any questions.
    Mrs. Biggert. I have one question. I understand that there 
really is no cure, but there is the antiviral treatment. And if 
somebody is not a good candidate for that and you find out that 
they have this, what happens to them?
    Dr. Simberkoff. The risk factors that preclude treatment 
are often things like alcohol, drug abuse and depression. One 
of the things that we are doing is to try to counsel patients 
about the fact that either alcohol or drug abuse perpetuates 
the problem and often makes it much worse so we are trying to 
get the patients into treatment programs so that they can--can 
deal with those problems. Certainly depression itself is a 
treatable medical problem. So again, we are trying to get 
patients into treatment for those things which for the most 
part are keeping them from being candidates, individuals who 
are not candidates for treatment.
    Mrs. Biggert. Is something like depression as a result of 
having this or is it a cause?
    Dr. Simberkoff. In some cases the medical illness may lead 
to the depression. If it doesn't respond, we will try to deal 
as best we can with the medical illness. But in many instances 
there are other medical problems. PTSE is another, and these 
are illnesses that the VVA has a great experience in trying to 
deal with. So I think we are hoping that many of these patients 
who are not candidates for treatment today will be better 
candidates for treatment in days or weeks to come.
    Mrs. Biggert. Thank you.
    Dr. Mitchell. I would like to add, if they need other 
supportive therapy, in other words they are cirrhotic and that 
is the reason that they have advanced liver disease, the reason 
they are not eligible for treatment, we would continue to 
provide all of that ongoing supportive medical care to which 
they would normally be provided. So we do not stop or not do 
any of the other things simply because they are hepatitis C 
positive.
    Mrs. Biggert. Thank you. Thank you, Mr. Chairman.
    Mr. Shays. Mr. Sanders.
    Mr. Sanders. Let me get back to dealing with the financial 
situation of the VA. My understanding, I think, Mr. Farsetta, 
you indicated that or somebody had mentioned to me in the past 
if I understand correctly, the VA treats more HIV patients than 
any other institution in the world; is that correct?
    Mr. Farsetta. Yes.
    Dr. Simberkoff. Yes.
    Mr. Sanders. And that is pretty expensive?
    Dr. Simberkoff. Yes.
    Mr. Sanders. Is that also true with hepatitis C?
    Dr. Garthwaite. I don't know that we have the data on that.
    Mr. Sanders. I ask that question for the following reason. 
Treatment of AIDS is obviously very expensive. Treatment of 
hepatitis C is very expensive and you asked a moment ago about 
outreach. He who has an institution struggling with inadequate 
financial resources, if in fact somebody said to them we want 
you to be very aggressive and do the right thing for this 
country and for the people involved, reach out, bring all of 
those people in who are veterans and who have AIDS, bring all 
of those people who are suffering with hepatitis C, and it is 
going to cost you $10,000 or $15,000 to treat hepatitis C, of 
course we are cutting the budget in the process but we want you 
to be very aggressive and do the right thing. I think we are 
sending you a rather mixed signal, and I think if I were an 
administrator, I would probably turn my back. Or if I were 
aggressive, I would have to cut back on the World War II 
veterans that we are not treating with the respect that they 
are due. What am I missing here?
    Try to be as honest as you can. I think because ultimately 
we are going to have to deal with this issue, if we want these 
people to do the right things, we are going to have to fund 
them or else we say don't do the right things.
    Mr. Shays. I know he is going to be more honest because he 
hasn't been in Washington long enough to know he has to be 
careful.
    Mr. Sanders. Yes. Be honest. I think it is important that 
the U.S. Congress hear the truth, because it is not acceptable 
because we want to help the veterans, we are deeply concerned 
about the veterans but we are going to cut them and, by the 
way, we are critical of you for not doing the right thing.
    Mr. Farsetta. I am not sure you have missed anything. I 
think it is as we approach 2000, it is really problematic. I 
think it is something that from an ethical perspective--I had a 
conference call with many of my treating clinicians yesterday 
on this very issue. And they are troubled not by today, but by 
the uncertainty about tomorrow, that when you engage in 
screening and make a diagnosis and treatment, then you are 
really ethically committed to provide that treatment. And do we 
want to engage a population that we are not quite certain that 
we are going to have the wherewithal to treat 6 months from 
today when we know the treatment is 48 weeks. So it is really 
problematic.
    Mr. Sanders. In other words, something is coming in, we 
have bad news for you, hepatitis C, but we can't treat you.
    Mr. Farsetta. Well, I think what we are doing is we are 
saying, we have bad news, you have hepatitis C, we are going to 
treat. The clinicians right now are not saying, but in 6 months 
we are not going to have the money, but they are saying to me, 
based upon the dialog we have had about based upon what the 
budget looks like for next year, do you have the resources to 
provide the wherewithal that is necessary for next year, and my 
response is A, I don't know; and if I don't, then something 
else will have to go, because we are really committed to doing 
this.
    Mr. Sanders. But in the back of your mind--you were asked 
about outreach. I would assume if I were sitting in your chair, 
I would not be all that aggressive. I mean you don't have to 
tell me whether you are or not and I know there are ethical 
concerns here, but in the real world, how are you going to 
launch a major outreach campaign if you are going to have to 
tell folks that you can't treat them? Anyone else want to 
comment on that?
    Dr. Garthwaite. I think you raise very valid concerns. We 
have had internal discussions where we have really talked about 
what are some alternatives if the money doesn't stretch, to 
provide all benefits to all comers, does that mean we then stop 
seeing priority 7 veterans. The reality is with the third-party 
insurance payments we get from priority 7 veterans and the fact 
that on average they cost less, it appears that they do not 
cost the VA a lot of money; i.e., if we stop seeing priority 7 
veterans, we wouldn't save a lot of money.
    So that I think was at least an initial concern about how 
to make all, you know, balanced budget numbers work was, in 
part, if you really get tight for money, you don't have to see 
the higher income veterans. The reality is they don't 
necessarily--by stopping seeing them, you don't necessarily 
save a lot of money. So then you are really talking about, 
since there aren't really that many priority 6 veterans, you 
are really talking about priority 5 veterans who do meet a 
means test for poverty.
    My guess is if you had a hepatitis C-positive priority 5 
veteran who meets a means test for poverty, that they are 
likely going to seek public resources for the treatment of 
their hepatitis C. You know, if the VA is not seeing them, I 
don't think that means that the taxpayer isn't going to help 
out here, and I think that we do a good job and would like to 
see us be able to do that.
    So I think we just have to work our way through how many we 
can see within the budget we are given, but I think it is 
probably good public policy to let the VA treat a fair number 
of hepatitis C patients. We learn a lot, I think we do a lot of 
research at the same time, and I think we do it compassionately 
as well, over the years that we have seen these patients, and I 
think it makes a lot of sense.
    Mr. Sanders. Let me just conclude by making a request. I 
think, and Chris or anybody else can disagree with me, but I am 
not sure that the average Member of Congress is fully aware of 
the financial stress that the VA system is under, given the 
load that they have to deal with, and I don't know that the VA 
has done--and I know that you are not able to lobby also, but I 
think you could do a better job in saying to the Members of 
Congress, just explaining.
    I talked to Dr. Kizer about this as well, but to say, look, 
with this amount of money, this is what we can't do. Congress 
ultimately has to make that choice and they should make that 
choice with their eyes open, and I would hope that you would 
give us those facts.
    What does it mean if your budget is cut? Tell us the honest 
truth. Is that something you think you could perhaps work on a 
little bit?
    Dr. Garthwaite. In fact, we are in the process, fairly far 
along in the process of looking at scenarios of the exact 
President's budget and at several increments as to what that 
would mean in terms of what we could or couldn't do at a local 
level and at a national level.
    Mr. Sanders. I know there are political ramifications to 
it, but I think you are not doing your job well unless you tell 
Congress what the truth is; and I would appreciate it. We are 
going to have to make those decisions very shortly, so the 
quicker you could get us that information, the better.
    Mr. Shays. It makes it more awkward if the administration 
hasn't honored a request, because then you are in the 
administration having to speak out about something that wasn't 
put in your budget. But I do think that there really is almost 
a moral necessity that happens. I think one way we can help 
your cause is to ask the GAO to step in and try to look at the 
cost of some of your big ticket items. I would assume HIV is 
one; another is hepatitis C potentially, and another is the 
costs dealing with Gulf war veterans based on our hope that we 
will make presumptions, and that will certainly increase costs 
a lot.
    Let me do this. There are other questions that if we need 
to, we will put them to you in writing, and we will get to our 
next panel. Thank you very much.
    Our next panel is Mr. Terry Baker, Vietnam Veterans of 
America and president of Veterans Aiming Towards Awareness; Mr. 
George C. Duggins, president, Vietnam Veterans of America, 
accompanied by Mr. Rick Weidman, director of Government 
Relations, Vietnam Veterans of America; and Dr. Adrian 
DiBisceglie, professor, Department of Internal Medicine, St. 
Louis University, and medical director of the American Liver 
Foundation; and finally, Dr. Alan Brownstein, president of the 
American Liver Foundation.
    It is very good to have all of you here. The first thing we 
do is, as you know, we swear in all of our witnesses, and I 
would ask you all to stand and I will give you the oath.
    [Witnesses sworn.]
    Mr. Shays. For the record, all have responded in the 
affirmative. We will use our clock, but let me explain how we 
will proceed. You have 5 minutes, and then I will tip it over 
again, and if you didn't finish in the first 5 minutes, if you 
would certainly finish within that 5 to 10 minutes, that would 
be helpful.
    So we will start with you, Mr. Baker.

  STATEMENTS OF TERRY BAKER, VIETNAM VETERANS OF AMERICA AND 
   PRESIDENT OF VETERANS AIMING TOWARDS AWARENESS; GEORGE C. 
DUGGINS, PRESIDENT, VIETNAM VETERANS OF AMERICA, ACCOMPANIED BY 
    RICK WEIDMAN, DIRECTOR OF GOVERNMENT RELATIONS, VIETNAM 
    VETERANS OF AMERICA; DR. ADRIAN DIBISCEGLIE, PROFESSOR, 
  DEPARTMENT OF INTERNAL MEDICINE, ST. LOUIS UNIVERSITY, AND 
MEDICAL DIRECTOR OF THE AMERICAN LIVER FOUNDATION; AND DR. ALAN 
        BROWNSTEIN, PRESIDENT, AMERICAN LIVER FOUNDATION

    Mr. Baker. Mr. Chairman and members of the subcommittee, my 
name is Terry Baker. As the executive director of Veterans 
Aiming Towards Awareness, a support group for veterans with 
hepatitis C, and national service officer for the Vietnam 
Veterans of America, I am honored to be here today to present 
my views on the Department of Veterans Affairs' handling of the 
hepatitis C epidemic.
    I want to thank you for your leadership and for holding 
this hearing on the VA's responsibility to help the men and 
women who risk their lives for their country and who now face 
an even greater risk. I am particularly pleased that the 
committee is focusing on if the national VA initiative is being 
carried out.
    As a veteran with hepatitis C, I want to begin by saying 
thank you to Dr. Kenneth Kizer and the Department of Veterans 
Affairs for recognizing the seriousness of this disease and for 
launching a major initiative to address it.
    In June 1998, the Department of Veterans Affairs issued 
guidelines to the VA health system regarding the proactive 
testing of veterans with any of 10 risk factors for hepatitis 
C. Beginning last June, every patient visiting a VA facility 
should have been evaluated for HCV. The results should have 
been entered into the patient's chart and an antibody test 
should have been performed on any veteran presenting with one 
or more risks.
    In January of this year, Dr. Kenneth Kizer announced 
further initiatives to deal with the hepatitis C virus. Among 
these was the creation of two hepatitis C Centers of Excellence 
where medical professionals and research scientists could 
coordinate treatment and research efforts, as well as develop 
education for patients and their families, health care 
providers and counselors. When Dr. Kizer established these 
centers he stated that, ``VA's goal is that every patient who 
needs and wants treatment will receive it.''
    Mr. Chairman, Dr. Kizer's initiative and his leadership on 
this issue are appreciated. However, the Department's 
ineffectiveness at the service delivery level in actually 
providing screening, counseling and treatment to hepatitis C 
infected veterans is most disconcerting. The VA hepatitis C 
initiative has been in place for 1 year now. During this time, 
the Department has not succeeded in communicating the 
objectives of this initiative to hospital personnel. I know of 
numerous cases of veterans who are not being assessed for 
hepatitis C risks, not being offered testing in a systematic 
fashion, and not being evaluated routinely for the suitability 
for treatment.
    In fact, many veterans have gotten just the opposite from 
the VA, the old runaround, by VA personnel and roadblock after 
roadblock in their pursuit to be treated for HCV, a disease 
they most probably contracted while defending their country.
    For example, I know a veteran in Idaho who was wounded in 
combat in Vietnam. I suggested he request a test for hepatitis 
C the next time he visited the VA hospital in Spokane, WA. When 
he did ask to be tested the staff at that facility gave the 
impression they had no idea of what he was talking about, and 
claimed that they were not aware of any such test. To date, the 
service-connected veteran has yet to be tested for hepatitis C 
even though he specifically and proactively went out and asked 
to be tested.
    Another veteran, this one from Montana, was actually 
diagnosed with hepatitis C during a nonVA-sponsored HCV testing 
last year. After discovering he was positive, he attempted to 
have the test confirmed at his local VA clinic, but they 
refused to test him. He then visited an Arizona VA clinic and 
the diagnosis was confirmed. Even though the VA doctor from 
Arizona contacted the Montana clinic and recommended followup, 
the VA clinic has continued to refuse the vet treatment for his 
hepatitis C.
    My final example comes from a hepatitis C-infected veteran 
in Newark, NJ. This veteran served with the 173rd Airborne 
Brigade in Vietnam where he was twice awarded the Bronze Star 
for Valor for coming to the aid of wounded soldiers on the 
battlefield. His military service records contained clear 
evidence that he was directly exposed to blood during combat in 
Vietnam. Even so, the VA denied his claim for service 
connections stating that he met none of the risk factors for 
hepatitis C, and that his records contained zero evidence of 
having hepatitis C. This statement completely contradicts VA's 
public acknowledgment that HCV symptoms often do not manifest 
for 10 to 30 years after the victim is infected. So right now, 
there is a Vietnam veteran who has been forced to seek out 
private medical attention at his own expense, because now he is 
in the last stages of liver disease.
    Members of the committee, I must stress that while I 
applaud VA's plan for dealing with hepatitis C, it is not 
enough to have a plan. This war against a deadly disease will 
require a fully deployed assault by all of us. The VA must act 
swiftly to educate its physicians, staff and all rating 
officers all about this disease. While training one physician 
and one nurse from each of the 172 medical centers may seem 
ambitious, it is not adequate.
    Mr. Shays. Excuse me. Mr. Baker, this is a little unusual. 
But ma'am, how many students do we have? Because they could sit 
up here if we don't have too many. How many students do you 
have? They can just sit on the side. You don't mind, do you?
    Mr. Baker. No.
    Mr. Shays. I find any time--you young people can sit right 
up along this side here.
    Mr. Towns. They come from my district, Mr. Chairman.
    Mr. Shays. I figured as much.
    Any way we can get Mr. Towns here, we will take it, because 
he has been such a wonderful member of this committee. How many 
other students do you have? You can sit right up over here if 
you want. You can sit on the floor up front. If you don't mind 
sitting on the floor, you can do that. You young people, if you 
don't mind, we are running out of seats up here, but you can 
sit up front here if you don't mind sitting on the floor. You 
can come in, and sit this way. Thank you for letting me do 
this.
    For the benefit of our guests, we are having a hearing on 
our veterans who have been affected with hepatitis C and ways 
that we can help them. There is some more room over here. The 
gentleman speaking now is a veteran.
    Mr. Baker, you are coming close to finishing and then we 
will get to the next speaker. Thank you.
    Mr. Baker. Members of this committee, I must stress that 
while I applaud the VA's plan for dealing with hepatitis C, it 
is not enough to have a plan. This war against a deadly disease 
will require a fully deployed assault by all of us. The VA must 
act swiftly to educate its physicians, staff and all rating 
officers all about this disease. While training one physician 
and one nurse from each of the 172 medical centers may seem 
ambitious, it is not adequate. The Portland VA Medical Center 
sent a computer specialist to the HCV training session held 
last week here in Washington. This does not seem to indicate a 
clear commitment from the Portland VA Medical Center.
    If VA's efforts must be limited, these efforts must also be 
focused, focused on persons most likely to interact with people 
affected by HCV. Something as simple as large posters at every 
VA medical center enumerating the risk factors for HCV and 
encouraging veterans to get tested have not been posted in VA 
facilities. These posters do not even exist. The VA said it 
would aggressively fight this disease, and yet few, if any, VA 
medical centers advertise hepatitis C testing. It was even 
brought to our attention that the VA Excellence Center in Miami 
was not receiving the proper funding to combat this disease. 
Dr. Mitchell herself had to personally address that problem. 
This approach seems inappropriate when a systematic plan has 
already been outlined. Or has it? Therefore, VA must ensure 
that every directive about hepatitis C is taken seriously and 
carried out completely by every VA medical center.
    I respectfully request, myself a veteran and on behalf of 
all veterans, that you hold the VA 100 percent accountable for 
its plans to fight this battle. If necessary, Congress must 
give Dr. Kizer the authority for centralized activities against 
hepatitis C. You alone have the authority to make sure the VA 
does precisely what it says it will do. Please aggressively 
pursue answers and results from the VA. I assure you all of 
America's veterans are counting on you. Please don't let them 
down.
    Thank you.
    [The prepared statement of Mr. Baker follows:]
    [GRAPHIC] [TIFF OMITTED] T9652.008
    
    [GRAPHIC] [TIFF OMITTED] T9652.009
    
    [GRAPHIC] [TIFF OMITTED] T9652.010
    
    [GRAPHIC] [TIFF OMITTED] T9652.011
    
    [GRAPHIC] [TIFF OMITTED] T9652.012
    
    [GRAPHIC] [TIFF OMITTED] T9652.013
    
    Mr. Shays. Thank you, Mr. Baker. What we will do, I want to 
acknowledge that the first panel who spoke has stayed to hear 
your presentation, and that is really appreciated; second, that 
the particular cases that you have presented should be shared 
with the VA, and it would be instructive for us to have, Dr. 
Garthwaite, just follow them up and then just see what the 
story is of breakdown or where there are other factors 
involved, and that would be instructive to helping you and 
helping us understand the system.
    Thank you for your testimony.
    Mr. Duggins, you are here to give testimony and then you 
are accompanied by Mr. Weidman who will respond to questions 
afterwards, is that correct?
    Mr. Duggins. We both will respond.
    Mr. Shays. I just meant that Mr. Weidman, you are not here 
to give testimony, but you will be responding along with Mr. 
Duggins and the others, as an equal member responding 
afterward, but Mr. Duggins, if you would give your testimony.
    Mr. Duggins. Mr. Chairman, my name is George Duggins and I 
serve as national president of Vietnam Veterans of America. On 
behalf of Vietnam Veterans of America [VVA], I wish to 
congratulate and thank you and your distinguished colleagues 
for your leadership in holding this hearing this morning on the 
subject of the hepatitis C virus and the efforts of the Vietnam 
Veterans Health Administration at the U.S. Department of 
Veterans Affairs to effectively deal with this epidemic that is 
disproportionately affecting veterans.
    Of particular interest to VVA is the apparently high 
prevalence among Vietnam veterans, particularly those veterans 
who served ``in country;'' i.e., the Vietnam theater of 
operations. Because of combat wounds, exposure to blood on the 
battlefield and other factors that attend to the most basic and 
messy nature of warfare, a large number of veterans were 
exposed and unaware that they should have been tested.
    VHA response is: The Veterans Health Administration has 
responded admirably following the outstanding report issued by 
this subcommittee in October 1998. The policy directive issued 
to all VHA facilities on June 11, 1998 is a very reasonable 
plan for a starting place to begin the process of testing and 
treatment. The treatment protocol issued by the VHA to all 
clinical coordinators at the end of December 1998 is a 
reasonable approach and a good starting basis for each medical 
facility to move forward with treatment. While we would hope 
that each of these policy statements and guidance documents 
will eventually be strengthened, they would be a reasonable 
start toward dealing with the veterans' aspect of this 
epidemic, if there is a means of ensuring relative uniform 
implementation.
    Earlier this year, many of the VVA local leaders in 
virtually every part of the Nation told us that VHA officials 
in their area were saying that the test would be given and that 
VHA had the resources and the means to set up their system to 
properly treat those who are tested and are shown to have 
hepatitis C virus. Today, it is our belief that most of the 
facilities are still doing an inadequate job of actually 
testing for hepatitis C virus in a systematic manner and are 
slow to treat in many cases. We are still hearing of Pharmacy 
Chiefs and VAMC directors who are reluctant to order enough of 
the relatively expensive medication necessary to begin 
treatment in sufficient quantities to begin early treatment of 
suitable candidates for this very arduous process.
    This lack of a concerted and highly visible outreach and 
rigorous testing campaign could have potential devastating 
effects on the veterans involved, as well as on the VA health 
care system that will have to deal with the aftermath of this 
not so benign neglect in the future. If left untreated, many of 
those veterans will develop symptoms of the virus, leading to 
very serious and debilitating diseases that may result in liver 
transplant as their only option.
    The extreme pressures of the VHA over 3 years of a flat 
line budget and the disastrous and woefully inadequate requests 
from the President for the fiscal year 2000 budget for VHA has 
cast a chilling effect on the motivations of the administrators 
in the field to move ahead with doing their jobs properly for 
veterans potentially affected with hepatitis C. Finally, while 
it is unacceptable and unconscionable for medical personnel to 
act this way, it is inexcusable for the President and the 
Congress to put these people in a situation of extreme and 
needless scarcity.
    We ask your help, Mr. Chairman, and that of your 
distinguished colleagues in helping secure a more reasonable 
budget for VHA for fiscal year 2000. While VVA believes that $3 
billion more than the President's budget request is truly 
needed, obviously the $1.7 billion more being currently 
discussed in Congress would help keep the system from 
diminishing any further.
    VHA should work with the veteran service organizations and 
American Liver Foundation and other public and private entities 
to mount a comprehensive, significant, extended and prolonged 
public service campaign to give veterans who may have been 
exposed to come into the VA, enroll, and be tested. Most 
veterans do not use the regular VHA facilities for their health 
care needs and since the virus is silent, most do not know that 
they are affected or even potentially at risk. This would 
perhaps be most effectively done as a part of an overall 
coordinated Federal response to hepatitis C epidemic, while it 
is still in a relatively early stage.
    VVA stands ready to do our part in such an outreach effort 
to spur testing of veterans and encouraging individuals to get 
tested now. It is our belief that many private groups as well 
as public entities and the media will be responsible for such a 
concrete and organized effort. However, VHA must take steps to 
assure that the key personnel at the local level stand ready to 
work with the veterans groups and the rest of the community in 
a meaningful and sustained manner.
    VVA would also note that such efforts must be designed and 
implemented in such a manner that all subgroups in the veterans 
population are effectively reached. Ensuring that the 
community-based groups that serve homeless veterans and others 
under several populations in greatest need is very important in 
this matter.
    VHA should begin to rigorously ensure that all veterans 
currently registered for the VHA services who meet the at-risk 
profile have their blood tested for signs of the hepatitis C 
virus. This is not happening at many of the medical facilities 
we are aware of at this moment. Many veterans at risk, such as 
the former medic accompanying me today, have been trying to get 
tested for hepatitis C at a VHA facility, but on their own 
initiative, not that of the VA.
    It is our belief at VVA that this can be set up as a 
regular part of intake and yearly physicals by the VHA by 
making it part of a computer program to indicate certain tests 
must be given to veterans based on his or her full military 
medical history that is logged in as a matter of course. This 
is something that VVA believes should be done for many sound 
medical reasons in a veterans health care system. VVA has 
engaged in discussions with top VHA leaders on this subject for 
several months and VHA has agreed this week to proceed with 
setting up a task group to begin the process of framing the 
design and implementation of the basic process.
    VHA must also take steps to ensure that much more effective 
accountability mechanisms are put in place that would enable 
the key national managers to monitor what is happening in the 
field. VVA has consistently called for much better and more 
effective modern accountability mechanisms within the VHA. The 
problem is one of the top officials in VHA not knowing what is 
going on at the service delivery level, except by anecdotes 
told to them by others. There is no mechanism for systematic 
quality assurance review in regards to hepatitis C or for other 
vital measures. This is simply no way to manage a system that 
is as large and complex as the VA Health Administration.
    VHA should closely work with the Surgeon General, the 
National Institutes of Health, and the Congress, to ensure that 
additional research is undertaken into more effective cures for 
eradicating the hepatitis C virus. While VVA is appreciative of 
the approximately $5 million in research funds which will be 
made available this year, the sum is inadequate in the face of 
the potential danger of the medical epidemic. Our Nation can do 
better in pursuit of a more effective cure for this virus.
    VVA would urge that the Department of Defense be involved 
in this effort and that you and your distinguished colleagues 
help DOD keep a positive attitude that is open to the virus 
being a potentially serious problem as opposed to denying 
beforehand that there could possibly be any substantial risk.
    Mr. Chairman, this concludes my remarks. I will be pleased 
to answer any questions you may have. Thank you again for 
allowing us to present our views here today and for your strong 
and vigorous leadership on so many vital issues that confront 
our Nation's veterans.
    [The prepared statement of Mr. Duggins follows:]
    [GRAPHIC] [TIFF OMITTED] T9652.014
    
    [GRAPHIC] [TIFF OMITTED] T9652.015
    
    [GRAPHIC] [TIFF OMITTED] T9652.016
    
    [GRAPHIC] [TIFF OMITTED] T9652.017
    
    [GRAPHIC] [TIFF OMITTED] T9652.018
    
    Mr. Shays. Thank you very much.
    At this time we are going to do the video for the 3 Members 
that weren't here, and then we will go to you, Mr. DiBisceglie, 
and then we will go to Mr. Brownstein.
    [Video shown.]
    Mr. Shays. Dr. DiBisceglie, if you would give us your 
testimony.
    Mr. DiBisceglie. Thank you, Mr. Chairman and other members 
of this committee. I have submitted written testimony.
    First, I will say that I am a physician, a hepatologist, 
that is a liver doctor, and I have been involved in the care of 
patients with hepatitis and researching viral hepatitis for 
more than 15 years now. Part of that was while I was at NIH and 
when I left there I was chief of the liver diseases section. I 
am currently at St. Louis University and medical director of 
the American Liver Foundation.
    I was asked to comment specifically on some aspects of 
hepatitis C, including appropriate standards for diagnosis. I 
think Dr. Holohan in panel I covered those points adequately 
enough; nothing to add, really.
    Next was appropriate standards for treatment. Here I would 
say that the standards I think were set by the NIH consensus 
conference which was held in 1997. It laid out criteria for 
selecting patients for treatment. For example, they needed to 
have raised liver enzymes, positive hepatitis C RNA, a liver 
biopsy showing significant liver disease, and then they said 
also that patients who already have advanced liver disease, 
cirrhosis, or those where the liver disease was very mild could 
still be treated, but on an individual basis. Then they laid 
out conditions for categories of patients who should not be 
treated outside of clinical trials or with extreme caution, 
those who have normal liver enzymes, decompensated or very 
advanced cirrhosis, or the contraindications that we have heard 
about already this morning, active alcohol or drug abuse or a 
history of severe depression. I believe that these standards 
still are appropriate today.
    What has changed since that NIH consensus conference is the 
development of an expanded array of therapies to treat 
patients. There are now 4 forms of interferons available and 
approved by the FDA. In addition, we have the use of ribavirin, 
which is used as an adjunct to interferon. To give you some 
numbers on that, because this came up with panel I, the data on 
developing a sustained response to the combination treatment 
overall is about 36 percent versus 16 percent using interferon 
alone.
    I was also asked to comment on my view of the status of the 
VA program to test and treat veterans, and I am certainly aware 
of the designated VA Centers of Excellence and the information 
reported by panel I, and their achievements in such a short 
time have been remarkable and I commend them for that. But in 
order to find out what was happening at the local level, I 
sought information from the director of the division of 
gastroenterology at my local VA, the St. Louis VA Medical 
Center, to find out what was actually happening on the ground. 
This is an unusual VA because it is affiliated with two major 
medical schools, both of which have a strong interest in viral 
hepatitis, great expertise. They in fact had established a 
hepatitis C clinic about 2 years ago. So far in this clinic 
they have evaluated and counseled more than 200 patients 
testing positive for hepatitis C. They found that only about 1 
in 10 of the patients in their specific clinic met the criteria 
for treatment and they are currently treating about 20 such 
patients.
    This director of gastroenterology pointed out to me several 
problems that they have identified. Although they have been 
successful on the service, they have several problems. The 
first was the waiting list. To be seen in this clinic is about 
6 months, so a patient diagnosed with hepatitis C to be 
evaluated by an expert would need to wait 6 months to be seen 
by these specialists.
    Second, he felt that he was receiving insufficient support 
by pathology and laboratory services, and this concern relates 
to the limitations put on the use of HCV RNA testing, the blood 
test, and lack of formal training and experience in liver 
pathology by people seeing the liver biopsies done in these 
patients. Third, really insufficient knowledge about hepatitis 
C by their referring sources. Thus, many patients are referred 
inappropriately to the hepatitis C clinic or may not have had 
an adequate workup before they are referred then.
    So I suspect that these issues at the St. Louis VA 
represent a microcosm of the situation nationally with some 
local variability.
    Moving on from there, I would make a couple of additional 
points. Most of the focus so far has been on getting the 
veterans tested and evaluated for antiviral therapy now, but I 
think thought needs to be given to the future, to the expected 
rise in the incidence of liver failure and liver cancer or a 
hepatocellular carcinoma that will occur over these veterans 
over the next 2 decades and the resources for the wave of 
morbidity and mortality need to be developed.
    Another important element of the VA program that I believe 
could be strengthened is research. Although there is already 
considerable VA-funded research, not much of it appears to be 
VA-specific. That is, there are many important questions to be 
addressed that could best be answered in the VA system.
    For example, what exactly is the role of combat exposure in 
the transmission of hepatitis C? What are the mechanisms of 
resistance to therapy in some patients and how does this apply 
to the VA?
    Finally, an issue key to the success of the VA program I 
believe is that it not be required or seem to require taking 
away resources from other VA programs. This is an element of 
discussion earlier with panel I.
    Mr. Chairman, I will conclude my remarks there.
    [The prepared statement of Mr. DiBisceglie follows:]
    [GRAPHIC] [TIFF OMITTED] T9652.019
    
    [GRAPHIC] [TIFF OMITTED] T9652.020
    
    [GRAPHIC] [TIFF OMITTED] T9652.021
    
    [GRAPHIC] [TIFF OMITTED] T9652.022
    
    [GRAPHIC] [TIFF OMITTED] T9652.023
    
    [GRAPHIC] [TIFF OMITTED] T9652.024
    
    [GRAPHIC] [TIFF OMITTED] T9652.025
    
    [GRAPHIC] [TIFF OMITTED] T9652.026
    
    Mr. Shays. Thank you very much.
    Mr. Brownstein, we will go with you and then I will have 
Mr. Towns ask questions, Mr. Sanders, and then I will ask 
questions.
    Mr. Brownstein. Mr. Chairman and members of this 
subcommittee, my name is Alan Brownstein, and I am the 
president and CEO of the American Liver Foundation. I thank you 
for giving us an opportunity to have our organization present 
our views to you today concerning the risk of hepatitis C 
infection to veterans.
    As a national voluntary health agency, our mission is to 
prevent, treat and cure hepatitis and other liver diseases 
through research and education. We are made up of chapters 
throughout the country, and we provide information to over 
400,000 patients and families and over 70,000 physicians in 
America.
    The prevalence of hepatitis C in the United States is 
staggering. We have 4 million Americans who have hepatitis C, 
10,000 with hepatitis C die every year, and as you heard 
before, hepatitis C is the leading cause of liver 
transplantation. Overall, 1.8 percent of all Americans have 
hepatitis C. What is shocking for this meeting here, as if that 
isn't shocking enough, is that 8 to 10 percent of all veterans 
have hepatitis C.
    Clearly, hepatitis C is a major health challenge for 
America, and in fact, will be the most significant infectious 
disease challenge as we enter the 21st century for us, but it 
is also an incredible challenge for U.S. veterans. Because 
hepatitis C is a quiet, a silent kind of virus, the vast 
majority of veterans with hepatitis C are not aware that they 
have it, because they do not have symptoms. We have heard a lot 
about treatment and that somewhat less than 40 percent of those 
who are eligible for treatment to receive it have a sustained 
response. It is also important to identify all veterans who 
have hepatitis C because there are other interventions that can 
help.
    Concretely, it is incredibly important that people with 
hepatitis C not drink. Drinking is like throwing gasoline onto 
a fire, so it is very important that this kind of message is 
given to those with hepatitis C. Also, it is of great 
importance that those with hepatitis C be vaccinated to protect 
them against hepatitis A and hepatitis B. While that is 
important for all Americans in many important areas, it is 
especially important for those who are infected with hepatitis 
C so that they are protected against additional liver damage.
    I would like to thank this committee and the chairman of 
this committee, because we appreciate the leadership that you 
have provided to focus America on hepatitis C. In your October 
1998 report, Hepatitis C: Silent Epidemic, Mute Public Health 
Response, that is incredible, because I think the humor in that 
title really underscores how serious the problem is. You have 
really opened our eyes, so I thank you for that. It says 
indeed, your input has paved the way for this veterans 
initiative, as the report pointed out, to the problem in U.S. 
veterans where you said that the Department of Veterans Affairs 
should conduct additional studies of the prevalence of 
hepatitis C in veterans' populations.
    As the chairman knows, on March 17, 1999, the VHA conducted 
a very significant national blood test of 26,000 veterans for 
hepatitis C antibody and found a prevalence rate of 8 to 10 
percent as I mentioned before. This is more than 5 times the 
national rate. And we also--the committee's foresight in 
calling for this test has confirmed the need and has paved the 
way for the $250 million that we hear has been requested by the 
Department of Veterans Affairs for fiscal year 2000.
    Our view of what the Veterans Health Administration has 
done is, others say that we are really very impressed with the 
mobilization that they have put forward in launching an attack 
against hepatitis C among veterans, and that the mobilization 
has been put into place. Now we are looking at implementation, 
full implementation in the year, in the years ahead. We believe 
that this implementation presents several critically important 
challenges.
    First of all, the $250 million of treatment that has been 
committed will not happen, it will not occur unless the 
infrastructure is developed. You cannot just have money for 
treatment without having the mechanisms to deliver the care. So 
the worst thing that could possibly happen is you reconvening 
this body next year and finding out that only $30 million, $50 
million or $75 million was spent in the year 2000. That would 
indeed be a tragedy, because that would not signify that there 
isn't a need, it would signify that we haven't effectively 
translated that need into an effective demand that can be 
responded to.
    So that is the first challenge, and we believe that this is 
an important challenge to the Department of Veterans Affairs; 
it is also an important challenge to Congress and also to the 
private sector and the American Liver Foundation is prepared to 
assist in whatever way we can from the private side, as I know 
other organizations are willing to do as well.
    The second challenge is that $250 million of treatment will 
not happen unless providers, the health care providers, the 
primary care providers within the VA are well--and all of those 
who are associated with the VA are well educated, well educated 
about hepatitis C. It is interesting because the American Liver 
Foundation has done many consumer awareness campaigns and our 
hotline gets about 15,000 calls a month. After we do campaigns, 
what we have learned is that people call us and they tell us we 
followed your advice, we went to the doctor and the doctor said 
it wasn't necessary to get tested, or we were tested and the 
doctor told us that it wasn't necessary to pursue treatment or 
not to worry about it. So while we are doing this campaign, we 
have an incumbent responsibility to make sure that the 
providers who are associated with treating veterans are well 
educated about hepatitis C.
    The third challenge is that the $250 million of treatment 
will not occur unless there is an effective awareness campaign 
directed at U.S. veterans. In other words, most are not aware 
they have it; most don't have the--the overwhelming majority 
don't have symptoms. Often, when you have symptoms, it is too 
late. So it is very important that we spark public awareness. 
And this again, public and private sector partnerships offer a 
great potential for us to really attack hepatitis C among 
veterans. One example is the public service announcement that 
you see here, but a heck of a lot more is needed to get that 
message across. So we have to use health education techniques, 
but also commercial techniques at selling hepatitis C, 
explaining what hepatitis C is all about to veterans in the 
broadest sense.
    But again, the broadest sense is not enough. The attention 
of veterans is captured. Once that happens, we will not succeed 
unless we meet the challenge of veteran education and outreach. 
It is extremely important that we reach those who are affected 
in culturally appropriate ways. We need to address the 
different subgroups within the veterans population. It is no 
longer a one-size-fits-all world. We must have targeted 
messages at veterans from different cultural, racial and ethnic 
backgrounds. There need to be different literacy levels to make 
sure those messages reach those veterans, and there needs to be 
a system of support groups so that the veterans have that 
background of support as they are struggling through the 
difficulties that many experience in their treatment, as well 
as the difficulties that will be faced by many who will not 
respond well to the treatments.
    The next challenge is that if we are going to commit $250 
million to fighting this disease among veterans, it is 
extremely important that we put accountability mechanisms in 
place so that we can figure out and we can look in the mirror 
and say, are we succeeding in this enterprise, and if we are 
not, how can we develop the corrective strategies to better do 
what we need to do to reach the veterans who are affected by 
hepatitis C, and to us, we believe accountability includes 
performance measures for testing, diagnosis and treatment; 
performance measures for outreach and education, establishing a 
data base to measure performance, and also having an annual 
report of results so that we can constructively move forward.
    And then the last challenge that I would like to present in 
closing is that we need to maintain the momentum. As Dr. 
DiBisceglie and others have pointed out, it is extremely 
important that we understand this is not going to be a 1-year 
solution. We have to be in this for the long haul. And from the 
private sector side, the American Liver Foundation has formed 
its own veterans hepatitis C and liver disease council that 
will include members from leadership from the top veterans 
service organizations and top medical and scientific people in 
and out of the VA. So we are prepared to work with you, and we 
need to have that kind of a partnership.
    We really need to look at this headline that was in 
yesterday's USA Today. It says millions hit hepatitis C 
deadline. What it means is that unlike HIV, which moves pretty 
quickly, hepatitis C is a slow burn in its natural history 
progression for most people. However, even though it progresses 
slowly, we now have veterans who have been exposed to hepatitis 
C for 10, 20 and even 30 years. So now we are in a race against 
time for those where there is inexorable damage that is being 
done to their livers. So that really now is the time to act and 
we need to have the urgency.
    I thank you, Mr. Chairman and the members of this 
subcommittee, for creating this sense of urgency about this 
very serious public health challenge that we face today. Thank 
you.
    [The prepared statement of Mr. Brownstein follows:]
    [GRAPHIC] [TIFF OMITTED] T9652.027
    
    [GRAPHIC] [TIFF OMITTED] T9652.028
    
    [GRAPHIC] [TIFF OMITTED] T9652.029
    
    [GRAPHIC] [TIFF OMITTED] T9652.030
    
    [GRAPHIC] [TIFF OMITTED] T9652.031
    
    [GRAPHIC] [TIFF OMITTED] T9652.032
    
    [GRAPHIC] [TIFF OMITTED] T9652.033
    
    [GRAPHIC] [TIFF OMITTED] T9652.034
    
    [GRAPHIC] [TIFF OMITTED] T9652.035
    
    [GRAPHIC] [TIFF OMITTED] T9652.036
    
    [GRAPHIC] [TIFF OMITTED] T9652.037
    
    [GRAPHIC] [TIFF OMITTED] T9652.038
    
    [GRAPHIC] [TIFF OMITTED] T9652.039
    
    [GRAPHIC] [TIFF OMITTED] T9652.040
    
    [GRAPHIC] [TIFF OMITTED] T9652.041
    
    Mr. Shays. Thank you. Mr. Brownstein, Mr. Towns and I were 
very involved, as well as Mr. Sanders, in this when we were 
looking at HIV, and it was that silent epidemic, just kind of 
that shadow epidemic, and it really hit us all that we needed 
to deal with it. So we thank you for your nice words, but it 
just kind of hit us in the face and slapped us around. We 
needed to deal with it. We appreciate all that you are doing 
and others on the panel that you are doing, and we also 
appreciate what the VA is doing to try to get a good handle on 
this. We have a ways to go, though.
    Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. Let me begin 
by thanking you for really sticking with this and working on 
it. You have put a lot of time on this, and of course it is a 
very serious problem and I want to congratulate you on the kind 
of effort that you have put forth. Also Mr. Sanders, who has 
also been involved in this issue for quite some time, and I 
want to salute both of you before I raise any questions.
    The first question I have, why do you think that it is much 
higher among veterans? I saw the video, but is there anything 
else that we need to know as to why it is so much higher among 
veterans than the general population?
    Mr. Duggins. Well, I think one of the reasons is it is the 
exposure to blood products in the combat environment. The 
general population do not have that effect. We might be seeing 
it in the cities now, but what I am saying in a combat 
situation, if your friend is wounded or you may have a scratch 
or something and you are dealing with his blood products, you 
don't have time to put on rubber gloves or take the necessary 
precautions to make the environment safe for you to deal with 
blood products. For us who are Vietnam veterans, at the time we 
were getting blood transfusions and blood products, the testing 
for hepatitis C or the testing of the blood products wasn't 
anywhere near where it is now.
    So we got bad blood. That is just the bottom line. I think 
more veterans were exposed to that. I don't think our conduct 
and behavior is any different than any other portion of our 
society.
    Mr. Baker. I also believe that in the veteran community, 
even though combat is definitely one of the biggest risk 
factors, veterans, they acclimate back into their own 
communities, they acclimate back into the armed forces, they 
are still with veterans, they are still amongst each other, and 
there are possibilities of transmitting other ways. As we said, 
possibly tattooing and other ways like that. So as they 
acclimate back in with other veterans and even when they come 
into the civilian world, veteran communities seem to stay 
together. So there is that process that we are more of a 
community and we are interacting more together, so the 
possibilities and the risk factors are higher for us as well, 
from point of service to being in the world again, and still to 
this day we interact with each other. We are always with each 
other.
    Mr. Towns. You just said something there that raises 
another question in my mind. You mentioned tattoos. All the 
young people today are going out and getting tattoos.
    Mr. Baker. Correct.
    Mr. Towns. It is a big thing among the young people. Nobody 
seems to be making the statement that this might be a 
connection here and nobody is saying it. So I am concerned 
about the education and prevention part of all of this. I would 
like to hear you on that.
    Mr. DiBisceglie. Let me comment specifically on tattoos, 
Mr. Towns. I think that the CDC has not been able to identify 
tattoos as a risk factor, but I think what they are thinking of 
is the kind of tatoo that is what is done commonly these days, 
in a tatoo parlor where there is awareness of the risk of 
transmitting blood borne viruses. I think what is of more 
concern is tattoos that are done perhaps in other countries 
while somebody was in the service, for example, in a back 
street or by a friend or something like that, where we are 
uncertain about the sanitary conditions. That does pose a 
potential risk. The usual kind of tatoo that is done commonly 
these days I don't believe represents a big risk.
    Mr. Brownstein. I agree completely with what Dr. 
DiBisceglie has said, because tatoo parlors now by and large 
are aware of it. But I would just say, for any young person who 
is considering getting a tatoo, you ought to think twice and 
make sure you check out whether there are the sterilization 
techniques. Ask to be shown what techniques are being used, and 
it should not be done in any casual way. So tattoos themselves 
do not spread it, it is when unsanitary conditions exist, if I 
might add that.
    Mr. Towns. The other thing that--do you want to add 
something?
    Mr. Weidman. I did want to mention just one other thing, 
Mr. Towns. Things that President Duggin pointed out having to 
do with the very nature of the combat situation itself and 
exposure to blood for those of us who served in Vietnam on the 
ground was one of the factors, as well as the other known risk 
factors. But there is something else that began that everybody 
went through, whether you served in country or not, that we 
have raised as an issue continuously with the CDC just 
recently, again with a long letter to them, and that is the air 
guns. The Department of Defense earlier this year has 
discontinued any use of the air gun whatsoever of any 
manufactured variety. You talk to any veteran in your district, 
Mr. Towns, or anywhere who went through, particularly the 
Vietnam era, they can tell you stories about long lines of 
hundreds of folks lined up with the air gun moving person to 
person with the blood running down their arm and dripping off 
the air gun. So because we know from the work of Dr. Siev at 
NIC and others that as early as 1948 the hepatitis C virus was 
present in the United States, you had transmission before 
people even got into basic training.
    Mr. Towns. I am concerned about the fact that the education 
prevention part is not stressed enough for me. Why, doctor, do 
we not deal with the education prevention? There are some 
things, based on what people are saying, that if people do it 
is possible for them to avoid it.
    Mr. DiBisceglie. We are coming along. I think one needs to 
recognize that is a fairly recently discovered virus. This was 
only discovered in 1989, 1990. It is only 8 or 9 years old. So 
it took 3 or 4 years after that to recognize how big of a 
problem, how widespread of a problem it was in the United 
States. So with that now, we have seen more and more. In the 
last 3 years I would say we have seen an acceleration of 
awareness among both physicians and the general medical public, 
and I think that education is coming along. However, I think 
more is clearly needed, as we have heard from the testimony 
today. Even among physicians who are not involved in treating 
these patients, their awareness may be somewhat limited, and I 
think we need more efforts in this area.
    Mr. Towns. What would you say to the veterans? What 
recommendations would you have to the VA regarding the 
nationwide implementation of the hepatitis C testing treatment 
initiative? I am listening to Mr. Duggin and Mr. Baker, and I 
am hearing that people are having difficulty getting tested. 
What suggestions do you have or recommendations do you have to 
the Veterans Administration?
    Mr. Duggins. I think one of the recommendations I would 
have to the Veterans Administration is that they have to do 
more outreach. I heard them say that they had a web page, but I 
also heard them say that the people at the most who would be 
affected are the underemployed and the unemployed. You can't 
convince me that these guys are going to sit there in front of 
a computer.
    Mr. Towns. And a lot of them don't have computers.
    Mr. Duggins. Right. So the outreach effort has to be 
rethought. One of the things that I have seen here recently is 
that in the State of Virginia, and I am from the Virginia Beach 
area, is that the Commonwealth of Virginia is dealing with the 
problem of convicts who are HCV positive. And they say well, I 
don't have the resources to treat these guys. So I am saying, 
how many of these guys are veterans and who should be treating 
them. Should the commonwealth be treating them if they are 
service connected? I can see 50 governments coming to Congress 
and saying look, guys, this is your problem, clean it up. 
Therefore, the outreach is limited. I found out about hepatitis 
C at a leadership conference that we were having and Terry and 
I both were tested at the same time. Hadn't heard about 
hepatitis C from the VA system up to that point. It wasn't the 
VA system that was doing the testing, it was an independent 
concern who was doing the testing. I ask veterans in my every 
day walk of life, have you heard of hepatitis C, have you been 
tested for it, and they look at me like what are you talking 
about? What is hepatitis C? So the VA can reach people in the 
system, but they are not reaching the people outside of the 
system who are veterans. I think that outreach has to be 
broadened.
    Mr. Brownstein. I think that you had mentioned your 
involvement with HIV earlier. I think we have a lot of lessons 
we could learn about HIV. I would venture to say that probably 
every one of these young people here knows about AIDS, knows 
something about AIDS. I bet a whole lot of them didn't know too 
much about hepatitis C until today. I think that we need to get 
that word out so that it is on the street. It needs to be on 
the street, because 400 percent more people are infected with 
hepatitis C than with AIDS. So just looking at the order of 
magnitude, we have a heck of a lot of work ahead of us.
    And the same applies to veterans. The average veteran has 
no idea about hepatitis C until you were tested just about a 
year or so ago.
    Mr. Duggins. Right.
    Mr. Brownstein. I think that what we need--I don't think 
every veteran should be tested, but I do think every veteran 
should be screened with some sort of a health risk assessment 
that doesn't have--put the burden on them to acknowledge what 
risks they are acknowledging, but just to say, if any of these 
eight areas apply to you, you ought to be tested, and those in 
that health risk assessment should be directed at the known 
risk associated, both on the battlefield as well as other risks 
that the veterans may have. Dr. DiBisceglie can speak to those 
risks.
    Mr. Towns. I have to go vote. That is the reason I am 
jumping up.
    Mr. Shays. Kind of weird talking to somebody who asks a 
question and he gets up and leaves.
    Mr. Brownstein. Maybe it is because of what I said before.
    Mr. Duggins. I also think that veterans who have third-
party insurance, if they knew about the hepatitis C virus, they 
would go to their own PCP for testing. I don't think they would 
overburden the system any. But I do think it is up to the 
system to get the word out to veterans. I know I would have 
gone to my own PCP to be tested, and I came to the VA system to 
be tested. I think all veterans who have that insurance would 
do that versus burdening down the system.
    Mr. Shays. Let me ask you about the intake process. What 
could be done, and I will start with you, Mr. Baker. What could 
be done to follow a process where we guarantee that there is 
some uniformity, and that we are making sure that no one is--we 
are missing anyone. If you put the mic a little closer to you.
    Mr. Baker. I think the first thing that could be done is 
the VA has a data base of all of their veterans within their 
system, and if the VA can send out form letters for issues 
about how much money on a cost of living allowance that a 
veteran gets every year, they could send out a form letter to 
every veteran within the system and explain to get tested for 
hepatitis C at your local VA clinic or your local VA hospital. 
That is an easy step to send out that form letter there.
    Second is when veterans come into the system or come into a 
VA hospital and request to be tested or also when veterans are 
there to explicitly make it a point that these veterans be 
tested, to talk to their directors of VA medical centers and 
directors of VISNs who have their own priorities on how they 
want to run their VISN or their hospitals and what they feel is 
important to bring it down from the top that this is the No. 1 
priority issue that all people, all veterans be tested and we 
do our outreach to make sure that everybody finds out about it.
    Mr. Shays. Before I go to the other panelists, when you say 
all veterans, some veterans don't need to be tested, correct?
    Mr. Baker. That is a--I tend to disagree. I think because 
we have an epidemic on our hands and because it is within our 
veteran community that sometimes is spread to our spouses and 
to other family members, that maybe we should aggressively just 
test all veterans and get a real idea of what is going on here 
instead of testing 141 veterans at one hospital when you have 
15,000 at that one hospital.
    Mr. Shays. Let me throw it out to the others. The first 
part of the question, do you recommend a particular procedure 
that should be followed to guarantee that there is some 
uniformity.
    Mr. Duggins. I think what they should do is to clone the 
director of division 3. I mean as I travel around the country, 
VISN 3 seems to be the poster child and others should adopt the 
procedure that they are using in VISN 3. That is the problem 
that veterans have. They hear good things that are going on in 
one division, and then they get denied these kinds of services 
and then they wonder why.
    Mr. Shays. Mr. Duggins, if we cloned and had more than one 
Mr. Farsetta in this world, this would be a dangerous world.
    Mr. Duggins. Right. And truly VISN 3 is the poster child of 
VISNs. I always hear good things about that VISN. But some of 
them don't seem to be getting in the ballpark.
    Mr. Shays. They have gotten in it early and we should be 
seeing their successes and failures and so on.
    Mr. Weidman.
    Mr. Weidman. Incidentally, I am from New York, and Jim 
Farsetta loves to come to Washington because sometimes he is 
more popular here than he is up there. But he is an excellent 
VISN director.
    You will notice that a question was skirted earlier today. 
There is no rigorous plan for taking the entire catchment of 
each hospital of folks already enrolled for treatment, matching 
that up against the 10 risk factors and then making sure that 
everybody who meets the 10 risk factors is tested, it is not 
happening. It is not happening in any facility that we are 
aware of. I met one of those risk factors by having been a 
medic in I Corps in 1969. I asked about testing at the 
Washington VA Medical Center last July. I was put off and asked 
again in October and was put off. I have been put off several 
times and then I started pressing the matter beginning in 
March. I am due to be--scheduled to be tested this Friday. I am 
a fairly tenacious guy, and it took that long to get the test 
even though I had requested it, even though I met one of the 
risk factors.
    The one thing that is missing from the plan, and we would 
agree at VVA that VA has done a good job in putting together a 
plan, but putting together a plan is not the action part, No. 
1. No. 2, within the actual procedures of testing, it is just 
simply not there at the local hospital nor is it in the 
protocol that they should go through as part of their normal 
physical and make sure that this test happens.
    The other thing is when people initially enroll in reaching 
outside of the VA, as George Duggins just commented on, to draw 
people in, people can enroll and if they can go through a 
battery of tests having to do with what happens to folks, what 
branch of service did they serve, what years did they serve, 
what was their military occupational specialty, where did they 
do service and what actually happened to them, and that is not 
just hepatitis C, that is lots of other things, ranging from 
exposure to dioxin to exposure to cortisol, exposure to DU, all 
kinds of things that would be reasonable for folks to screen 
for if in fact it is a veterans health care system, and that is 
not currently happening.
    We have had discussions with VHA on this and have what we 
believe is agreement to move forward to put together a task 
force of veterans service organizations, VA officials and DOD 
officials to move in that direction so when you go into the VA 
hospital in my instance automatically because of when and where 
I served, I would have gotten a hepatitis C screen.
    Mr. Shays. Let me do this. We are probably going to have a 
2-minute recess to enable our young people who are probably a 
little awkward sitting down all this time to leave if they 
want. That would probably be helpful. So we will just take a 1-
minute recess to allow our students--is that good?
    Mr. Duggins. That is great. Thank you.
    Mr. Shays. We welcome you to our hearing and thank you for 
coming.
    [Brief recess.]
    Mr. Shays. Let me call the hearing back to order.
    What I really think is on the table is the first panel is 
obviously having to wrestle with the fact that there are 
limited resources and we are starting to find ways to get the 
word out and then the question is who gets tested and who 
doesn't get tested. It is such a gigantic network some VISNs 
are going to do a good job and some are not. The VA has to find 
a way to get a handle on that. What I want to do is ask what 
recommendations would you make to the VA regarding the 
nationwide implementation of the testing and treatment? One, 
should we agree that all of the ones at risk should be the ones 
first and foremost? Second, is there a protocol that you are 
aware of that is there that you are certain that the right 
questions are being asked to determine the people at risk, and 
are you convinced that there is the proper follow on. And I 
would be happy to have VA respond to this question as well.
    Mr. DiBisceglie. Well, I think certainly the CDC has 
considered the question should we be screening the general 
population, and they have discarded that option. They feel it 
is not cost effective. Along those lines I would say the same 
for the VA, but it depends on what the definition of screening 
is. Everybody should be screened by a health risk assessment 
questionnaire. If everyone has the 9 or 10 risk factors, if 
there is any one that is positive, that should move you to the 
next step of getting a blood test, which is very doable, I 
think.
    Mr. Duggins. I think that the main thing that the VA has to 
do is make certain that the VISN directors buy into the 
program. If they don't, the implementation is going to fail in 
their area and the veterans are not going to be tested. I agree 
that the at risk categories should be the first ones tested 
and, if dollars allow, any other veterans who seeks this test 
should have it. I know some of the at risk factors but I think 
we should put all of the at risk factors out there and then 
those veterans will know whether they should bother being 
tested for this.
    Mr. Shays. Anyone else?
    Mr. Brownstein. I think that--your part of the question 
about getting the word out, the American Liver Foundation last 
week conducted a market research survey of 700 veterans across 
America, Bruskin survey research firm and I will share this 
data with you in the next week or two. We are basically trying 
to find out what the veterans know and don't know about 
hepatitis C. Also what their behaviors would be if they thought 
they might be at risk for hepatitis C as well as what they see 
as perceived provider responses. So based on that data we are 
going to try to target messages that are directed at veterans 
to try to capture, to best educate people about that. And 
toward that end we are preparing a brochure that we are 
prepared to distribute to 3\1/2\ million veterans associated 
with the VA and we are already talking with VA officials, and 
we are going to get their involvement.
    But the first step is entry into the system. In other 
words, it has to be stimulating that unmet need into and 
effective demand based on knowledge from those veterans.
    Mr. Shays. I am going to be asking one last question on 
research, Dr. DiBisceglie, probably directed toward you but let 
me ask if Mr. Sanders has any other questions.
    Mr. Sanders. I do have questions.
    Mr. Shays. Why don't we go to your questions.
    Mr. Sanders. I thought this was an excellent panel and I 
think all of your presentations were important. What I am 
hearing, and correct me if I'm wrong, and maybe, Mr. 
Brownstein, you want to start off and others can pipe in, is 
that there are large numbers of veterans who are sitting out 
there with hepatitis C who don't know it. Are we all agreed on 
that?
    Dr. DiBisceglie. That is correct.
    Mr. Sanders. The other panel was indicating that perhaps 
the numbers that they had seen were perhaps disproportionately 
high or we don't know the answer to that but I gather that we 
are looking at--how many folks are sitting out there with 
hepatitis C who are veterans who don't know it now? Does anyone 
have a wager or guess?
    Dr. DiBisceglie. I think we are lacking the data, but those 
who tested positive in that 1 day sample is 8 to 10 percent. 
Extrapolating from the general population, 80 to 90 percent of 
the population with hepatitis C do not know it; 8 to 10 percent 
would make 350,000, and 80 to 90 percent do not know it. This 
is a silent disease. It either has no symptoms or they are so 
vague and nonspecific that would not lead you to think of 
hepatitis as being the likely cause.
    Mr. Weidman. Our estimate is 8 to 10 as a minimum and it 
may be greater, 8 to 10 percent.
    Mr. Sanders. You think that is the low end?
    Mr. Weidman. Yes. And you asked the question before having 
to do with resources of the panel, if we don't test now and 
start to deal with--first of all, I think it is unconscionable 
not to test. And second, it flies in the face of the wellness 
model and we are going to pay a heck of a lot more down the 
line if we don't catch people before they start to show 
symptoms. It is just not reasonable for--don't ask, don't tell. 
Don't ask, don't treat is not a policy that we should be 
pursuing in this, and so rigorous testing and outreach of 
people already in the catchment who are doing blood work anyway 
is simply not reasonable to move forward in a methodical 
manner.
    Mr. Sanders. I agree. If VA tomorrow did all of the right 
things, you are talking about a mammoth outreach and beginning 
treatment for these hundreds of thousands of people. That is a 
monumental effort, is it not?
    Dr. DiBisceglie. Yes.
    Mr. Sanders. The only other question I would ask is have we 
tested for incidence of hepatitis C in Korean veterans? Is 
there anything particular about Vietnam as opposed to World War 
II or Korea?
    Dr. DiBisceglie. I think it is 4 percent of Korean veterans 
have hepatitis C?
    Mr. Brownstein. I don't know. I did see data presented last 
Thursday that showed it was somewhat of a bimodal distribution. 
It was real heavy on Vietnam and then there was some data that 
showed that Korean and I think even World War II, and I would 
defer to anyone from the VA who is more familiar with that 
data.
    Mr. Sanders. Should there be any difference of incidence? 
Should there be differences between Vietnam and Korea?
    Dr. DiBisceglie. I think hepatitis C was a disease that was 
emerging in the general population after Korea and that 
explains it in good part.
    Mr. Sanders. Thank you.
    Mr. Shays. Thank you. Just to end the hearing, tell me is 
there any value in having research that is focused directly on 
veterans' populations?
    Dr. DiBisceglie. I think there definitely is. Clearly just 
getting patients tested and evaluated for therapy is just the 
beginning step. There will be some who don't meet the criteria 
for treatment now or do not clear the virus therapy, and so 
those individuals will remain within the system and some will 
have their liver disease progressing or require medical care 
there. And there are some I think veteran specific questions 
that can be answered related to perhaps the demographic 
variation of the veterans versus the general population. I 
think we need to look toward the future as well in terms of new 
treatments. I think the VA needs to stay at the forefront of 
new treatments as they become available to be able to test and 
develop them or ways of minimizing the liver disease to avoid 
it progressing. I think all of these are very valid areas for 
research.
    The VA has a large infrastructure and there is now this 
large cohort of patients, a couple hundred thousand, I think 
that represents a wonderful research opportunity.
    Mr. Shays. Yes, sir.
    Mr. Baker. I think the other thing, and Mr. Sanders talked 
about it before with the other panel, is their funding. I 
didn't hear anyone actually say out of that panel but they are 
underfunded, and they know that they are. Their employees are 
overworked, understaffed at most facilities and now they have 
this tremendous new incident that has come upon them.
    Sure, directives will come down, and I even talked to a 
director at an RO, and he said directives will come down. But 
how are we supposed to take care of it. They are losing people 
every day. Kizer has to make more cuts but we are asking that 
patients with hepatitis C and veterans be taken care of. And 
the issue is really money. The VA is trying to do a job at the 
top to the bottom and their facilities don't have the 
resources, don't have the people to even try to take, like I 
said, from Portland. They had a computer specialist more than 
likely because there was nobody else that they could spare.
    The other issue is they need funding real bad.
    Mr. Duggins. We have heard the rob Peter to pay Paul 
scenario, but Peter doesn't have any money. You are robbing 
somebody who is already broke.
    Mr. Weidman. There was talk of the caps and how we need to 
squeeze in under the caps. Let me say that veterans health care 
was the only health care for a discrete group of Americans that 
was flat lined in 1997. Had that been done to African-
Americans, to women or to any other discrete group of people 
that you were going to take over the next 5 years a 50 percent 
cut in your health care because we are going to flat line you, 
all the dickens would have broken loose, and we did it to 
veterans in that kind of a discriminatory way and it slid on 
through.
    The cap was wrong to begin with. Let the Congress not be 
like George Armstrong Custer. Let's go back on this Custer 
decision and set it right by raising the cap on veterans health 
care.
    Mr. Shays. Let me ask you, though, as related to the cap on 
veterans, there was no determination that we would flat fund it 
for 5 years. It was a determination that the overall budget 
would have a slight growth. So I am not quite comfortable with 
your description.
    Mr. Weidman. If we went back to 1990 and we charted out 
medical inflation, we charted out Medicaid, the Federal portion 
of it and Medicare----
    Mr. Shays. So is your point that more money is being spent 
but less than the required need?
    Mr. Weidman. And when you factor in inflation.
    Mr. Shays. So you are basically saying that we are losing 
ground on inflation.
    Mr. Sanders. I would just add to what Mr. Weidman says, and 
correct me if I'm wrong, if the VA does the right thing and 
they reach out to all of the veterans, the 10 percent who are 
infected are treated, you must be talking about astronomical 
numbers that there is no way on God's green Earth you can deal 
with within the budget.
    Mr. Brownstein or Dr. DiBisceglie, is that correct?
    Dr. DiBisceglie. That is correct.
    Mr. Sanders. If they do the right thing and respond to 
hepatitis C----
    Mr. Shays. I think the record will demonstrate that we are 
putting tremendous demands on the VA and someone like myself, 
who does believe that we need to find a way to honor this 
agreement as best we can, we either have to find the money from 
some other area, not within VA, or we have to break the cap. 
Those would be my two options.
    Let me do this. Since I said responding to the cloning of 
Mr. Farsetta would make the world a more dangerous place, he is 
clearly allowed to come back and make any comment he would 
like.
    I would like to dismiss this panel and thank them and just 
invite the VA. If they have any closing comments I am happy to 
have them make any comments, Dr. Garthwaite, or anyone that 
accompanied you.
    Dr. Garthwaite. Thank you, Mr. Chairman. I would just echo 
your comment for any specific cases, we would very much like to 
fix the individual case and understand why it happened.
    Mr. Shays. Mr. Baker, we are hearing that request. Given 
that you have come forward with some individual cases, it is 
important that you share them with the VA and share them with 
our office as well. Let's followup. There is no attempt to 
blame anyone, but let's say why is this not working and what 
can be done. And if there are other factors, we would like to 
know that.
    Dr. Garthwaite. We have already fixed some specific 
communication issues. It helps us get uniformity. I am very 
much interested in how we can use posters and letters to 
veterans and other things to improve our outreach and to make 
sure that we let veterans know what else we can do. I think the 
panel did an outstanding job and we are basically in agreement.
    Mr. Shays. The only other thing, and I am happy to have you 
do this in communication with my staff, is how do you provide 
some uniformity so that everybody is getting that message and 
it is not just going to a few, and I do think that a lot can be 
learned from your VISN where you are actually finding that they 
are already into it, and by reexamining what they are doing 
well and see how you can use it in other facilities.
    Dr. Garthwaite. Certainly. One of the concerns people have 
had about some decentralization of control is the 
nonuniformity. The good news is that allows creativity which 
often identifies much better ways of doing business. It is our 
challenge to find that creativity and the better ways and 
export that to the other networks.
    Mr. Shays. I happen to agree that I will take creativity 
over uniformity, so I have a lot of license in that.
    In other words, you don't want to hold anyone down who is 
able to do some things, but to at least make sure that there is 
a minimum standard of communication, a minimum standard that 
guarantees you that this word is getting out.
    Dr. Garthwaite. I agree.
    Mr. Shays. Thank you very much. With this we will call the 
hearing adjourned.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T9652.042

[GRAPHIC] [TIFF OMITTED] T9652.043


</pre></body></html>
